<html>
<title> - [H.A.S.C. No. 112-35]ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT POSTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-35]

 
                      ARMY AND AIR FORCE NATIONAL
                      GUARD AND RESERVE COMPONENT
                           EQUIPMENT POSTURE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 1, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-806                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  



              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHY CASTOR, Florida
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, April 1, 2011, Army and Air Force National Guard and 
  Reserve Component Equipment Posture............................     1

Appendix:

Friday, April 1, 2011............................................    27
                              ----------                              

                         FRIDAY, APRIL 1, 2011
   ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT 
                                POSTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2

                               WITNESSES

Carpenter, MG Raymond W., USA, Acting Deputy Director, Army 
  National Guard.................................................     8
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, U.S. Air Force 
  Reserve........................................................     4
Stultz, LTG Jack C., USA, Chief, U.S. Army Reserve...............     3
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard     5

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    31
    Carpenter, MG Raymond W......................................    90
    Reyes, Hon. Silvestre........................................    34
    Stenner, Lt. Gen. Charles E., Jr.............................    71
    Stultz, LTG Jack C...........................................    37
    Wyatt, Lt. Gen. Harry M., III................................    83

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   111
    Mrs. Roby....................................................   119
    Mr. Turner...................................................   118


   ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT 
                                POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                             Washington, DC, Friday, April 1, 2011.

    The subcommittee met, pursuant to call, at 12:54 p.m., in 
room 2118, Rayburn House Office Building, Hon. Roscoe Bartlett 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The Tactical Air and Land Forces Subcommittee 
meets today to receive testimony on the equipment status and 
requirements of the Army and Air Force National Guard and 
Reserve Components.
    We welcome our witnesses, Lieutenant General Jack Stultz, 
Chief, U.S. Army Reserve; Lieutenant General Charles Stenner, 
Chief of the U.S. Air Force Reserve; Lieutenant General Harry 
Wyatt, Director of the Air National Guard; and Major General 
Raymond Carpenter, the Acting Deputy Director of the Army 
National Guard.
    Since September 2001, almost 600,000 guardsmen and 
reservists have deployed in support of combat operations, 
representing 40 percent of the total reserve force of 1.2 
million troops. All 34 National Guard combat brigades have 
deployed to either Iraq or Afghanistan.
    Two years ago Secretary Gates adopted 82 recommendations 
from the congressionally mandated commission on the National 
Guard and Reserves. One of those recommendations was to equip 
and resource the Guard and Reserve Components as an operational 
Reserve, rather than the Cold War model of a strategic Reserve.
    The previous strategic Reserve model assumed very few 
mobilizations and assumed risks with inadequate equipment 
strategies. The change to an operational Reserve status 
coincident with a reorganization of the Army has greatly 
increased the amount of equipment Guard and Reserve units are 
required to have.
    The Department is making improvements and progress in 
providing adequate funding to equip the National Guard and 
Reserve Components to enhance its role as an operational 
Reserve. Sustaining this funding and having the necessary 
transparency and accountability of the equipment, however, 
continues to be a major challenge.
    The purpose of today's hearing is to get an assessment of 
the equipment and modernization needs of the Army National 
Guard, Air National Guard, Army Reserve and Air Force Reserve. 
We also expect to learn of the improvements that have been made 
in managing the Guard and Reserve equipping process.
    While most Guard and Reserve units deployed overseas have 
all the equipment they require, many of those units don't get 
all that equipment until just before deployment, and in some 
cases after they deploy, which makes training to deploy very 
difficult.
    Aging equipment is also an area of critical concern. For 
example, Air National Guard aircraft are on the average 28 
years old, with the KC-135 tankers averaging 49 years old. The 
Air National Guard is reporting a $7 billion shortfall in 
modernization funding.
    Congress has not hesitated in trying to address equipment 
readiness shortfalls we have noted in many Guard and Reserve 
units. National Guard and Reserve Component procurement from 
fiscal year 2004 to fiscal year 2010 is still approximately 
42.1 billion, averaging almost 6 billion per year.
    Since 2004 Congress has authorized approximately 7.4 
billion in a National Guard and Reserve equipment account. This 
funding has enjoyed sustained bipartisan support both on this 
committee and throughout the Congress. Although substantial 
progress has been made in terms of adequate funding and 
reorganization, there is much more to be done. Shortfalls still 
exist.
    Before we begin, I would like to turn to my good friend and 
colleague from Texas, Silvestre Reyes, for his remarks.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 31.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman. And today's hearing, I 
know, will cover a vital element of our armed forces, the 
Reserve Components of the Army and the Air Force.
    And I would like to add my welcome and thanks for your 
service, gentlemen. Thank you for being here.
    Back in 2006 there was a lot of debate about mobilizing 
large numbers of Reserve soldiers and airmen for the war in 
Iraq. Today we don't hear as much about this particular issue 
in large part, I think, because using the Guard and Reserve to 
support Active Duty Army and Air Force has become a routine way 
of doing business.
    Since September 11th of 2001, hundreds-of-thousands of Army 
and Air Force reservists have deployed to combat. Tens-of-
thousands are deployed today, with more in the pipeline to 
replace them. As the Chairman has pointed out, this change from 
a strategic Reserve to an operational Reserve is a major shift 
in U.S. military policy, with major impacts on equipment needs.
    Of course, this isn't a new issue for this subcommittee, 
which has strongly supported additional funding for Army and 
Air Force Reserve Component needs. In fact, this subcommittee 
has led the way each year in pushing for additional equipment 
and its funding for the Guard and Reserve.
    These efforts have made a big impact in terms of both 
quality and quantity of equipment for the Guard and Reserve. So 
much progress has been made in getting the Guard and Reserve 
the modern equipment they need, but there is still much more 
work that remains to be done.
    Today's hearing will hopefully answer some questions about 
where the Reserve Components of the Army and Air Force are 
headed in the future. For example, how will we modernize the 
Air National Guard fighter aircraft fleet, given the delays in 
the F-35 Joint Strike Fighter? How will the Army's new 
rotational readiness model impact the equipment sets for the 
Army National Guard and the Army Reserve? If the Army National 
Guard and Army Reserves are indeed operational, as Reserves 
should they have the same quality equipment as the Active Army?
    And finally, as the DOD [Department of Defense] looks to 
save money but maintain a maximum capability, should we 
consider increasing the size of the Army and Air Force Reserve 
elements as one way to get more bang for the buck in tight 
budget times? The answers to these and other questions will 
have a major impact on the future of the Reserve Components, so 
today we look forward to hearing more about these issues.
    With that, Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 34.]
    Mr. Bartlett. Thank you very much.
    We will proceed with the panel's testimony, then go into 
questions. Without objection, all witnesses' prepared 
statements will be included in the hearing record.
    General Stultz, please proceed with your opening remarks.

 STATEMENT OF LTG JACK C. STULTZ, USA, CHIEF, U.S. ARMY RESERVE

    General Stultz. Thank you, Chairman Bartlett, Mr. Reyes, 
Mr. LoBiondo, Mr. Wilson. It is an honor to be here today in 
front of you for this testimony.
    I am here representing 206,000 Army Reserve soldiers around 
the world. And I placed in front of you a chart that shows the 
end strength of the Army Reserve and where it has been and 
where it is today. And I did that to illustrate one point. If 
you go back to the period of fiscal year 2002, 2003, you will 
see that the Army Reserve was way over strength, and we went 
from that period down to 2006 timeframe to almost 20,000 under 
strength.
    Today--and I can set it up here; it is this chart--today we 
are back to about 206,000, being authorized 205,000. Now, the 
only reason I want to show you this chart is that was the old 
strategic Reserve on your left-hand side. That is the 
operational Reserve on the right-hand side. That is where we 
have been. That is where we are. And today I can report to you 
that your Army Reserve is the best-manned, best-equipped and 
best-trained Army Reserve we have ever had.
    And I continue to be in awe, as I travel around the world, 
to see soldiers in Iraq, Afghanistan, Africa, Germany, Asia, 
places like that, Kosovo, that are well-educated. They have got 
good civilian careers. They have got families. They have got 
nice homes. And they still raise their hand and take an oath to 
serve their Nation, knowing that we are going to ask them to go 
in harm's way and risk their lives.
    And they do it because they love their country. And they do 
it because they feel their service. And they do it because they 
think, as they should, that we are going to provide them the 
right resources, the right equipment and the right training 
that they need and that we are going to take care of them and 
their families when they come home.
    So while we have got this great operational Reserve, sir, 
that is a huge return on investment, just as Mr. Reyes said, 
when you are talking about our total military. The only way we 
are going to keep it is if we keep providing the equipment, the 
training and the resources that those soldiers deserve, because 
they are combat veterans now. They know what it is like to go 
and fight for their country. And they are going to expect us to 
provide them that same level of equipment and same level of 
training back home to maintain that combat edge.
    And so today I hope that is what we get the opportunity to 
talk about, because that is what my soldiers want, because if 
we don't, we will repeat that dip again. We will go back 
through that same, and we cannot as a nation afford that. We 
built too good of an operational Reserve to let it go back the 
other way.
    So, sir, on behalf of those 206,000, thank you for the 
support that your committee and Congress has given us. And 
thank you for the support you will continue to give us in the 
future. I look forward to your questions.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 37.]
    Mr. Bartlett. Thank you, sir. Be assured that we appreciate 
the contribution of our Guard and Reserve. They are maintained 
at a fraction of the cost of the regular military. We clearly 
cannot fight without them, because there is no way a 19-year-
old can have the skill set and experience of a 39-year-old.
    And so we recognize the contribution that you bring, and we 
are concerned that the Guard and Reserve are not always as well 
equipped and therefore did not have the opportunity for the 
kind of training the regular military has, and we want to 
correct that deficiency. Thank you very much for your 
testimony.
    Now, General Stenner.

  STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, 
                     U.S. AIR FORCE RESERVE

    General Stenner. Chairman Bartlett, Congressman Reyes, 
committee members and fellow servicemembers, I very much 
appreciate you allowing me the opportunity to be with you to 
have this constructive conversation regarding one of the most 
important parts of my job, ensuring over 70,000 citizen airmen 
making up the Air Force Reserve have the resources and training 
essential to maintain that most important readiness that we 
have today.
    I would like to first, if I could, take the opportunity to 
introduce Chief Master Sergeant Dwight Badgett. As the Air 
Force Reserve Command command chief, Chief Badgett serves as my 
senior enlisted advisor, helping me keep track of the issues 
regarding the welfare, readiness, morale, proper utilization 
and progress of this command's outstanding airmen.
    And thank you for being here today, Chief.
    My written testimony outlines our priorities, but briefly, 
I would like to mention the fact that reservists continue to 
play an increasing role in the ongoing global operations. They 
support our Nation's needs, providing operational capabilities 
around the world.
    As we speak, Air Force reservists are serving in every 
combatant command area of responsibility. There are 
approximately 4,300 Air Force reservists currently activated to 
support missions around the globe. That number includes our 
forces' contribution to the Japanese relief effort and direct 
support to the operations in Libya.
    Despite increased operations tempo, aging aircraft and 
increases in capital scheduled downtime, we have improved fleet 
aircraft availability and mission-capable rates. The Air Force 
Reserve is postured to do its part to meet the operational and 
strategic demands of our Nation's defense, but that mandate is 
not without its share of challenges.
    Our continued ability to maintain a sustainable force with 
sufficient operational capability is predicated on having 
sufficient manpower and resources. The work of this committee 
is key to ensuring Reserve Component readiness, and the 
National Guard and Reserve equipment account is our means for 
preserving combat capability. It guarantees that our equipment 
is relevant and allows for upgrades to be fielded in a timely 
manner.
    Current levels of NGREA [National Guard and Reserve 
Equipment Account] and supplemental funding have allowed the 
Air Force Reserve to make significant strides in meeting urgent 
warfighter requirements. Air Force Reserve NGREA funding of at 
least $100 million per year will provide parity with the 
regular Air Force and Air National Guard and greatly enhance 
our readiness.
    As exemplified by our contribution to the joint fight, our 
Nation relies on our capabilities. Properly equipping the 
Reserve Components will ensure the Nation continues to have a 
force in reserve to meet existing and future challenges.
    In a time of constrained budgets and higher cost, in-depth 
analysis is required to effectively prioritize our needs, but 
we must all appreciate the vital role the Reserve Components 
play in supporting our Nation's defense and concentrate our 
resources in areas that will give us the most return on that 
investment.
    I thank you again for asking me here today to discuss these 
important issues affecting our airmen, and I look forward to 
your questions.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 71.]
    Mr. Bartlett. Thank you for your testimony.
    General Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairman Bartlett and Mr. Reyes, members of 
the committee, thank you for the opportunity to appear before 
you today. I also want to thank the committee for the 
extraordinary support that you have given America's Air 
National Guard airmen, some 106,700 strong.
    I would like to open with a brief review of our activities 
in 2010 before turning to the future of the Air National Guard. 
I think it is clear that your Guard airmen continue to make 
significant contributions to the Nation's defense both here at 
home and abroad.
    Last year Air Guard airmen filled 52,372 requests for 
manpower, and 89 percent of these requests were filled by 
volunteers. Forty-eight thousand five hundred thirty-eight 
served in Federal court Title 10 status primarily overseas, and 
while most of those served in Iraq and Afghanistan and the 
surrounding areas, Air Guard members also served in Central and 
South America, Asia, Europe, Africa and Antarctica.
    And Guard airmen serving in harm's way are not just flying 
airplanes and supporting flight operations. In fact, the 
greatest demand may be in the areas of security forces, 
intelligence, computer support and vehicle maintenance. Today 
Air Guard members are providing aerial refueling, airlift and 
command-and-control support relief efforts in Japan and 
Operation Odyssey Dawn in Libya, where we have states working 
in conjunction with Air Force Reserve Command and Active Duty 
airmen to provide aerial refueling capability in the region.
    Domestically, your Guard airmen are helping with the 
Southwest border security, the counterdrug program, and 
guarding the skies above our Nation, flying the Air Sovereignty 
Alert mission. In addition, Guard airmen almost daily are in 
our communities protecting property and saving lives.
    Guard combat search and rescue personnel in Alaska and 
California and New York are frequently called upon to help 
search for lost hikers or rescue stranded climbers. I got a 
report yesterday of two mountain climbers in Alaska that were 
pulled off an 11,000-foot peak by Air National Guard rescue 
helicopters.
    The Air National Guard modular aerial firefighting units 
have supported the Forestry Service in numerous missions, and 
Guard airmen also made significant contributions to the 
earthquake relief in Haiti, oil cleanup in the Gulf, floods and 
tornadoes in the Midwest, and we are entering the hurricane 
season, where the Guards will be present again. Every day 
somewhere in America there are Air Guard members supporting 
civil authorities and protecting our citizens.
    As we prepare for the future, the Air National Guard wants 
to build upon the lessons of the past. Former Secretary of 
Defense Melvin Laird introduced the total force policy. When he 
did that, his objective was to maintain defense capability in 
an era of decreasing budgets, kind of like we are in today. We 
in the Air Guard believe the policy has proven valid. The 
Reserve Components are the solution, not the problem.
    Properly managed and resourced, the Air National Guard as 
well as the Reserve Components can provide combat-ready and 
combat-relevant capability at lower cost to the taxpayer--
combat-ready in that the Air National Guard has proven its 
ability and willingness to respond quickly to the Nation's 
call. Again, referring to Odyssey Dawn, we had over 150 airmen 
in theater in less than 24 hours.
    And as far as combat relevancy, given adequate equipment 
and funding, the Air National Guard will integrate seamlessly 
into the joint war fight at any point along the spectrum of 
conflict.
    There are many factors that produce the cost-effectiveness 
of the Air National Guard, and the most obvious is the part-
time nature of our workforce. When not performing their 
national security mission training or preparing, about 70 
percent of our Guard airmen are not being paid with taxpayer 
dollars. They pay their mortgages, car payments and children's 
tuitions with paychecks from their civilian jobs.
    But the cost-effectiveness of the workforce also includes 
different medical plans and retirement systems at less cost to 
the government. And we don't move Guard families from base to 
base every few years. Our Guard airmen also optimize the use of 
correspondence courses and distance learning for their 
professional military education and training, cutting down on 
TDY [Temporary Duty] and travel expenses significantly.
    The other major component of Air National Guard cost-
effectiveness is related to our community basing, the fact that 
most Air National Guard units are not located on large military 
installations with all their supporting infrastructure, but at 
civilian airports or within business communities.
    For less than a $4 million a year investment per year in 
airport joint use agreement fees, we gain access to 64 
commercial airports. Or put another way, the Air National Guard 
operates 64 community bases for the approximate cost of 
operating one Shaw Air Force Base.
    Community basing means much more than just an extraordinary 
tooth-to-tail ratio. It means a U.S. Air Force presence in 54 
states and territories. That provides a recruiting base for all 
of the military services, an invaluable connection between the 
military and the civilian community it serves.
    Finally, when you have a group of airmen who have grown up 
in a local community, worked in the local community, go to 
church and school in that community, they build lifelong 
relationships with their neighbors and civic leaders, 
relationships that are invaluable when dealing with an 
emergency or national disaster or when the Nation must go to 
war.
    I will tell you what my greatest concerns are for the 
future and what keeps me awake at night. In our rush to save 
infrastructure costs through consolidation, we lose sight of 
the intrinsic value of community basing. As we plan the 
recapitalization of weapons systems, the retirement of older 
systems to pay for more new systems, we fail to manage our most 
valuable asset, our people.
    When an Air National Guard unit moves from a flying mission 
to a non-flying mission, more is lost than just the aircraft. 
Highly experienced pilots and maintainers are no longer 
available for the total Air Force. Not only will the experience 
not be available in an emergency, but it will not be available 
to help season young regular Air Force airmen, and we lose that 
dual-use equipment, equipment we use to help our neighbors in 
an emergency.
    In conclusion, just let me say that the exceptional men and 
women of the Air National Guard have proven themselves ready, 
willing, able and accessible for both their Federal role and 
for their domestic civil support role. Thanks again for the 
opportunity to be here today. I look forward to answering any 
questions that you might have.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 83.]
    Mr. Bartlett. Thank you very much.
    General Carpenter.

   STATEMENT OF MG RAYMOND W. CARPENTER, USA, ACTING DEPUTY 
                 DIRECTOR, ARMY NATIONAL GUARD

    General Carpenter. Chairman Bartlett, Ranking Member Reyes, 
distinguished members of the subcommittee, it is my privilege 
and honor to be here today to represent 360,000-plus soldiers 
in the Army National Guard.
    Of those soldiers, nearly 34,700 are currently mobilized, 
and more than half have had combat experience. The sacrifice of 
these soldiers, their families, their employers is something we 
not only acknowledge, but deeply appreciate. I wish to thank 
you for the opportunity to share relevant information on the 
equipment posture of the Army National Guard and thank you for 
your continued support. Thanks for the congressional support.
    Our Nation has invested billions-of-dollars in equipment 
for the Army National Guard in the past 6 years. The delivery 
of that equipment has nearly doubled the Army National Guard 
equipment on hand rates for critical dual-use equipment--that 
is, equipment that can be used both in the homeland and 
overseas mission--over the past 5 years.
    I would be remiss if I did not point out how important 
NGREA and the work of this committee have been in modernizing 
and equipping the Guard. This year we have achieved a critical 
dual-use fill rate of 89 percent, with 76 percent of that 
equipment on hand in the units, available to the Governors, 
should they need it even tonight.
    The Army National Guard aviation program for both fixed- 
and rotary-wing aircraft provided huge benefits in support of 
domestic and overseas operations since 9/11. Every year offers 
Army National Guard aviation a new set of challenges.
    In fiscal year 2010 fixed-wing aircraft transported in 
emergency supplies and personnel during floods, wildfires and 
other emergencies across the Nation. During the recovery effort 
after and during Deepwater Horizon oil spill, the Army National 
Guard aviation crews logged 3,720 hours and moved over 16 
million pounds of cargo.
    The Operational Support Airlift Agency provided critical 
combat support by transporting blood donations and wounded 
warriors across the United States. Fixed-wing aircraft also 
transported much-needed supplies and personnel to Haiti after 
the January 2010 earthquake. At home and abroad, these aircraft 
completed 11,312 missions, transported over 3.5 million pounds 
of cargo, and carried more than 70,000 passengers.
    We have seen Army aviation requirements increase in 
Afghanistan while remaining steady in Iraq. The result has been 
an increased up-tempo for Army National Guard aviation. While 
we have retired many of our aging aircraft and divested 
ourselves of the venerable Huey, we still have shortfalls in 
CH-47, Chinook and AH-64 Delta Apache airframes.
    The investments made in the Army National Guard have 
contributed to our transformation to an operational force. The 
Nation will benefit from the past investment and experience in 
our modern Army National Guard. In a budget-constrained 
environment, the operational Army National Guard is a cost-
effective solution.
    I already mentioned the importance of NGREA. Because it is 
critical to our equipping strategy, we have worked diligently 
to ensure our obligation rates this past year have met the 
acquisition objectives of the 80-percent obligation rate in the 
year of appropriation and 90 percent in the second year. I am 
proud to report to you today that 93 percent of the NGREA funds 
for fiscal year 2009 have been obligated, and 84 percent for 
fiscal year 2010 have been obligated, well above the 
established goals.
    It is also vital that we continue to fund soldier and 
family outreach programs. In calendar year 2010, the number of 
reported Army National Guard suicides doubled--62 in calendar 
year 2009 compared to 113 in calendar year 2010. Within the 
Army Guard we have set a goal to cut that number by half, back 
to 60, in calendar year 2011.
    Most states have developed comprehensive social support and 
mental health initiatives as well as what the Army has done to 
support our programs. These programs emerged out of the need to 
strengthen soldier resilience.
    Several of our states, including Michigan, Nevada, 
Nebraska, California, Wisconsin, Kansas and Illinois, have 
innovative resiliency programs across the Nation, and the 
Adjutant Generals are committed and actively engaged in this 
effort. I credit them with the current downward trend we are 
experiencing in the reported number of suicides for calendar 
year 2011.
    Again, I would like to acknowledge the critical role your 
committee has played in building and sustaining the best 
National Guard I have seen in my career of more than four 
decades. I look forward to your questions and comments.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 90.]
    Mr. Bartlett. Thank you all very much for your testimony. 
As is my practice, I will reserve my questions until last, 
hoping that they will all have been asked by other members of 
the subcommittee.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony.
    My first question deals with the Army's current plan for 
equipping Army National Guard brigade combat team, including 
having just one out of six heavy brigades equipped with the 
best, most modern versions of the M1 tank and the M2 Bradley.
    The committee received testimony earlier this year that the 
reason for this disparity in the equipment was due to the 
affordability concerns that the Army had with, you know, with 
trying to have all Army heavy units equipped with the most 
modern and capable M1 tanks and M2 Bradley vehicles.
    The questions I have, the first one is, doesn't it make 
sense to have our Army National Guard heavy brigades equipped 
with the very best versions of the M1 tanks and M2 Bradley 
vehicles? Over and over, the Army mantra has been we train like 
we fight. And it just seems to me that not having our soldiers 
equipped with the same equipment that, hopefully, they are 
going to take into battle is not a good policy. It doesn't make 
sense, again, based on what the Army says.
    Second, how would having the most capable M1 tanks and M2 
Bradley vehicles help Army National Guard units integrate into 
the Army's future tactical communications network? And if the 
Guard doesn't have these digital platforms, could it 
conceivably be left out of the future Army network battlefield?
    General Carpenter, if you give us your sense on these three 
questions?
    General Carpenter. Yes, sir. First of all, a number of 
years ago the Army structured a two-variant strategy for the 
tanks and Bradley side of not just inside the Army National 
Guard, but across the Army. They have progressively modernized 
to the most modern version of those particular vehicles, and to 
this point the Army National Guard, as you pointed out, has one 
heavy brigade combat team that is equipped with M1A2 SEP 
[System Enhancement Program] tanks, and the coordinated Bradley 
fighting vehicle that goes along with that particular variant.
    We have 435 tanks. We have got six brigade combat teams and 
three combat arms battalions that are equipped with the other 
version, the M1A1 SA [Situational Awareness]. To this point, 
both are deployable into the warfight. And the reason why the 
two-tier structure was adopted was because it was an 
affordability issue and the ability of the tanks and Brads to 
be produced. So we are comfortable at this point that both of 
those variants will be deployed, if there is a requirement.
    With regard to the communication piece, there are enablers 
in both variants that allow for the digital communication with 
the required battlefield systems in order for us to function, 
in order for us to meet our obligations. Again, we adopted the 
two-tank variant with the Army, and at this point we are still 
in that agreement. We still believe that both variants are 
available for deployment and will be used in time of need.
    Mr. Reyes. Thank you, General Carpenter.
    General Wyatt, as you know, the F-35 Joint Strike Fighter 
is facing additional development delays. The subcommittee has 
been informed that these delays could push back initial 
fielding of the Joint Strike Fighter by as much as 2 years.
    In response to this delay, the Air Force is starting an 
effort to do service life extension upgrades to some of the F-
16s in its fleet. But, of course, this process will be slow, 
with no F-16s going in for the SLEP [Service Life Extension 
Program] upgrades until 2016.
    What is your current understanding of how the Air Force 
intends to modernize the F-16 squadrons in the Air National 
Guard? And do you think it makes sense to accelerate SLEP 
program in order to ensure that the upgraded F-16s are 
available correspondingly at the right time?
    General Wyatt. Mr. Reyes, thank you very much for the 
question. Obviously, this is an area of serious concern for the 
Air National Guard as we fly the majority of the older block 30 
F-16s. I would say probably the best way to answer this 
question is with an observation at the very beginning, and then 
tell you what I know and don't know about the recapitalization 
program of the Air Force.
    First, I think the key to the recapitalization of the 
combat fighter fleet for the Air Force is to take an approach 
that all of the components should be concurrently resourced 
with the new airplanes in a balanced fashion across all three 
components concurrently with that of the Active Component.
    We know that the recent slip in the F-35 program that you 
have talked about has influenced the United States Air Force to 
take a look at the service life extension program that you 
mentioned. And it is true that the Air Force is considering 
that.
    That decision, as you said, doesn't have to be made until 
2016 with the current status of the F-35 program. If there were 
any changes to the 35 acquisition program as it has been 
restructured, that might require a different look or different 
timeframe. But right now, the keys to the Air Force 
recapitalization program are about fourfold.
    I would say that the restructured F-35 program must stay on 
time, on track and on cost would be the first one. The second 
would be the F-22 modernization program should be fully funded 
so that all of the F-22s in the fleet will have the same 
capabilities. Number three, if necessary, the block 40 and 50 
F-16s should see service life extension. Again, the time would 
depend upon how the F-35 program goes.
    And then one thing that has occurred since the last time we 
had the opportunity to meet last year, sir, is that the Air 
Force has funded the structural sustainment program for the 
early block, the pre-block F-16s. This is significant for all 
of the Air National Guard block 30 units, because with this 
sustainment we are able to extend the life of those airplanes 2 
to 3 years. And so that is good news for all the block 30 wing 
commanders and Adjutants General out there.
    As far as what lies after, I would stress that a fully 
funded and all of those components I just mentioned about the 
recapitalization plan is key not only for Air National Guard 
recapitalization, but also for the United States Air Force 
recapitalization.
    It is imperative that we evaluate the program as we go 
along, because right now of all the block 30 F-16 units that 
are in the Air National Guard, only the Burlington, Vermont, 
unit has been selected for the F-35. And we think that, barring 
any further SLEPs in the F-35 program that will happen in the 
2020 timeframe, give or take a year.
    But the other units, even with the structural sustainment, 
will need to see some sort of future in their plan in the years 
2020, 2021, that timeframe. I am working with the United States 
Air Force now to further evaluate the probable flow of block 40 
and 50 jets to the Air National Guard as the F-35 comes online 
and it is fielded to the Active Component.
    And I hope that by the time we meet together next year or 
later on, that we will have a definite number not only the 
number of 40s and 50s that will flow to the Guard to replace 
our block 30 fleet, but also the timing in the amount per year 
so that we can program those into our units, which face a loss 
of their F-16 block 30s in the 2020 timeframe. I hope that 
answers your question, sir.
    Mr. Reyes. It does, and I thank you for that answer.
    Although, Mr. Chairman, we had, as you know, Secretary 
Gates here yesterday, and one of his comments was that for 
those that are thinking about finding ways to cut the defense 
budget, he would ask that we all keep in mind the many 
challenges that we are facing around the world and mentioned 
Japan, of course, Libya and Afghanistan and among many.
    But I also think it is important that as we travel around 
the world and received the Reserve and National Guard 
Components deployed to some of these very areas as we heard the 
testimony, that the Secretary think about how we support them 
with updated equipment as well.
    And I appreciate the position you gentlemen are in in order 
to get the information to us and the fact that you will make do 
with whatever the decision is, but I just think we need to 
carefully look at that, because at any given moment the 
National Guard and reservists could be in the middle of the 
Libyan fight or deployed to Afghanistan, as they have been. And 
you know they were a major part of the Iraqi effort.
    So I have one more question, but I will reserve it until a 
second round, if we are able to, with the votes. Thank you, Mr. 
Chairman.
    And thank you, gentlemen.
    Mr. Bartlett. We should have time for a second round.
    Now, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thanks to our distinguished panel, and thank you for your 
service to our country.
    On Wednesday Admiral Winnefeld referenced Section 333 of 
the fiscal year 2011 National Defense Authorization Act during 
an opening statement before the full committee. I offered this 
language with Congresswoman Gabby Giffords, and I know that 
this section requires him to evaluate the ASA [Air Sovereignty 
Alert] mission in consultation with the Director of the 
National Guard Bureau and report back to us on various 
components of the mission that we outlined.
    I guess, General Wyatt, this would probably be for you. Can 
you give us any insight into what we can expect to read in that 
report and when we can expect this report to be made available, 
since we asked for consultation from the Guard side?
    General Wyatt. Yes, sir. And thanks for the question. I 
have been in consultation with Admiral Winnefeld. Our staff 
have worked closely together. My understanding is the Admiral 
will be ready to release that report here very shortly. I can't 
tell you exactly when.
    But I think in summary what you will see, without getting 
into any of the detail until it is announced, is that the 
Admiral recognizes as the commander of NORTHCOM [United States 
Northern Command] the importance of the Air Sovereignty Alert 
mission. He recognizes the growing threat that we face with the 
maritime threat and some of those capabilities that seem to be 
emerging.
    And I think that he will also take a look at some of the 
other ways, including not just Air Sovereignty Alert, but the 
other ways that the Department can help with ensuring the 
sovereign airspace of the United States of America.
    Congressman, as you well know, because you have one of 
those units in your jurisdiction, that the Air National Guard 
performs 16 of the 18 Air Sovereignty Alert sites across the 
country. I would not expect that total number to change much, 
if at all, because I think that with the threat that we face, 
there is wisdom in geographical disbursement of our forces. We 
are able to respond quicker that way, and it, I think, further 
points out the value of the community basing that we have.
    That particular unit that is in your jurisdiction, the 
177th, is one of the ASA units, as you well know, and it 
protects one of the most heavily populated areas of the 
country. And if you look around the country at the other 
locations of our Air Sovereignty Alert sites, you can see that 
they protect not only our citizens, but key infrastructure 
around the country that may come under attack.
    So I applaud Admiral Winnefeld for what he is doing with 
the report. I think it will be very informative to the United 
States Air Force, the Department of Defense and Congress also.
    I have great confidence in the work that he is doing. He is 
pulling together the Adjutants General and our wing commanders 
in the Air National Guard, and I know he is working with the 
Army National Guard and the other Reserve Components, too, as 
he looks at new and innovative ways to protect our country.
    I hope this answers your question, sir.
    Mr. LoBiondo. Yes, sir. I also have a follow-up.
    And I want to thank Mr. Reyes, because he touched on this 
with the situation with the F-16.
    But there are additionally two areas that we specifically 
asked for the report to look at are the current ability to 
perform the ASA mission with respect to training, equipment and 
basing and whether or not the ASA mission is fully resourced.
    Could you try to give us your opinion on these two areas 
and offer some recommendations on how the subcommittee might be 
able to help you address the current and future shortfalls that 
you might have with specific pieces of equipment of your F-16 
fleet?
    General Wyatt. Let me address the age of the fleet first, 
because the answer to the question is right now we are okay. We 
have sufficient capability to perform the Air Sovereignty Alert 
mission.
    You know, there has been some discussion about as we 
recapitalize the United States Air Force and the Air National 
Guard, is it necessary to bed down those units that perform the 
ASA with fifth-generation fighters.
    And I would point out that of the 16 Air Sovereignty Alert 
sites that are covered primarily by our block 30 F-16s, that 
those same units not only do the Air Sovereignty Alert mission, 
but they are used in the Federal warfight overseas as we rotate 
on Air Expeditionary Force rotations, and we count on those 
airplanes to perform our operations overseas in the event of 
war.
    When you think about in the future, and this goes to answer 
your question about proper equipping in the future, it is 
apparent that we will need the capabilities that reside in the 
fifth-generation fighter, not necessarily the stealth aspects 
so much, but those parts of the fifth-generation fighters like 
AESA [Active Electronically Scanned Array] radar, like 
integrated communications, like fusion sensor and fusion 
systems that allow the Air Sovereignty Alert birds to 
communicate with the other sensors that we have available 
around the country and to have the com that we need and the 
electronic warfare protection that the units would need when 
they perform the AEF rotation that they are required to do.
    In the last couple of years, we have made great strides in 
rewriting what we call the DOC [Doctrine] statements, the 
description of capability statements, for each of our Air 
Sovereignty Alert units so that--and we did this in conjunction 
with Air Combat Command in the United States Air Force--so that 
there is a documented requirement not just for the warfight 
overseas and the capabilities that our jets need for that, but 
also for the Air Sovereignty Alert mission.
    So when we talk about the basing locations, I think you 
will see that in the report that it comes out. I think what you 
will see is we have those pretty much right. There may be some 
small tweaks one way or the other as far as the equipping.
    For the current time we are okay, but I share your concern 
that as we age those F-16s out, that if we don't modernize them 
with either a SLEP or replacing them with 40 and 50 series F-
16s with those AESA sensor fusion and communication 
capabilities, that there could be a time in the future when we 
will not be able to adequately protect ourselves.
    But I have great faith that through the recap program with 
either F-35s or with legacy flow of 40s and 50s, we will be 
able to meet that mission in future. There is a question on the 
timing and when that will happen, and those are the details 
that I think will probably be dictated by the performance or 
lack thereof of the F-35 acquisition program.
    Mr. LoBiondo. Well, I again thank you, Mr. Chairman.
    General, thank you. I hear what you are saying, cautiously 
optimistic that this timing works out, but, boy, if it doesn't, 
we are in a heap of hot water. We are in a heap of hot water.
    Mr. Chairman, thank you very much.
    Mr. Bartlett. Thank you.
    Mr. Critz.
    Mr. Critz. Boy, that is the problem about being way up 
front. You can't see who is behind you. But thank you, Mr. 
Chairman.
    Thanks, Generals, for being here.
    My first question goes to you, General Carpenter, and it 
sort of plays along with what Mr. Reyes was asking earlier, is 
that with the two fleet or two variant in the Abrams, you know, 
I think--I am looking through the presidential procurement 
budgets for the last about 6, 7 years, and it seems that about 
mid part of the decade is when everyone realized that we had 
better start funding procurement for the reservists and the 
Guard so that you could train well.
    And in Pennsylvania, where I am from, we have quite a lot 
of Guard and Reserve that not only are in the state right now, 
but have served in pretty much any activity that we have had.
    And I am curious that when you are planning, and we have 
actually AH-64Ds in my congressional district, so they are 
training on what is being used in theater, and what does that 
add to the training of our guardsmen when they are training on 
the Abrams that aren't the ones being used in the field or the 
AH-64s, if they are training on the ones that don't match what 
they have to use in the field? What does that do to your 
training?
    General Carpenter. Well, sir, obviously, when they are 
training on a model that they are not going to fight with, that 
they are not going to deploy with, there is some gap there that 
you have to train up before you can deploy or before you can be 
integrated into the rest of the force on the ground in the 
theater.
    Right now, as I mentioned to Mr. Reyes, the two-tank 
variant and two-Bradley variant fleet are interoperable. And so 
what we have been assured by the Army is that they will be 
deployable.
    Now, I don't think that we should fool ourselves and say 
that they are going to deploy the older, less capable model 
first. They are going to deploy the most capable, obviously, 
into the theater. And so we are confident that if that happens, 
they will become part of what we call theater-provided 
equipment. And at that point, you know, we will rotate soldiers 
and units in on top of that fleet, which is what we are doing 
in Afghanistan right now.
    Mr. Critz. Right.
    General Carpenter. The AH-64D is a different issue. We are 
not deploying the A models into any theater at this point.
    Mr. Critz. Right.
    General Carpenter. And so we are in the midst of a 
conversion of all of our A models into Delta models. We have 
three battalions left to go. And right now, we are looking 
forward to having all of those equipped with the AH-64 Delta 
models.
    Part and parcel to that is the high demand for those kinds 
of helicopters in theater in Afghanistan. And we are seeing 
that requirement rise as opposed to going down, so we are 
pretty confident that those helicopters are going to be 
fielded, and those crews and those units are going to be used 
when required in that particular rotation.
    Mr. Critz. I appreciate that, and, you know, my concern is 
that we have--and especially when you are talking about our 
Guard and Reserve, when they live in the community, and they 
are getting deployed and they are training up, and then they 
are not necessarily always going to be deployed as a unit. They 
are going to be attached to other units and then have to train 
up or have to be equipped and trained.
    So it is just one of those concerns that as I look at the 
production schedule for really three of our ground vehicles, 
Abrams, Bradley and Stryker, you see that the Abrams goes to 
zero in fiscal year 2014--they are not going to make anymore 
Abrams tanks--and then ramp up again a couple of years later. 
Bradley stops fiscal year 2015. They stop producing Bradleys. 
And the Stryker, there is going to be a gap starting fiscal 
year 2014.
    And having lived in a state where Guard and Reserve play 
such a large role, I always want to make sure that our 
guardsmen and reservists are equipped and trained so that when 
they go to theater, they are effective and there is not a lag 
time that has to be covered.
    So I appreciate that answer. It is still a concern, because 
certainly, I think, there is an opportunity to continue the 
Abrams production and upgrade them all to the M1A2.
    One thing that came to light, I have a very good friend who 
is an Army aviator, who talks fondly of the Sherpa. And we see 
the Sherpa mission being moved from the Army to the Air Force. 
And I am wondering how that affects the Guard and Reserve.
    And because when the--and this is the way I see it--is when 
the Guard, especially the Guard when they have it, you own 
those vehicles, and it is like having your kid with your car. 
You take care of it, you keep it clean, and you keep it 
operational. And I am wondering what that impacts in your 
operational opportunity.
    General Carpenter. Sir, there are 17 states across the 
Nation that have Sherpas. There are 42 total airplanes. There 
are about 500 aviators and crew chiefs that are involved in 
that particular mission across 17 states.
    We have been directed, courtesy of the resource management 
decision, RMD, to begin parking those aircraft, divesting 
ourselves of those aircraft starting in this year. We will park 
four of these airplanes this year, and by fiscal year 2015 we 
will have totally divested ourselves of those particular 
aircraft.
    We are concerned about the future of the aviation community 
that makes up the C-23s right now, and we are making plans for 
them to transition prospectively into rotary-wing aviation or 
perhaps transition to being part of the C-27 crews that are 
involved with the Air National Guard.
    Our concern from a homeland defense perspective, though, is 
that these aircraft shoulder the bulk of the cargo and 
passenger capacity inside of the country. Specifically, the 
Deep Horizon disaster that we saw, oil well in the Gulf, much 
of what was done down there in the fixed-wing world was done by 
the C-23s.
    Mr. Critz. Yes, yes.
    General Carpenter. We think that there is a gap that we 
need to be concerned about between when we start the 
divestiture and when the C-27s come online in full capacity and 
in enough quantity to take up that responsibility. And we are 
working with the Army at this point to figure out how to 
resolve that issue.
    Mr. Critz. I want to thank you. I do have another question, 
but I will yield back so that some other folks can get their 
questions in.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And, Generals, thanks for coming out.
    As you may or may not know, I have the honor to represent 
Joint Base McGuire-Dix-Lakehurst, one of the predominant 
Reserve National Guard bases in the country.
    But talking, you know, we always talk about 15, 20 years 
down the road, but I just want to touch on, you know, what are 
your top equipment, you know, General Wyatt, what are your top 
equipment priorities now and your, really, your shortfalls in 
the fiscal year 2012 budget as we currently sit here?
    General Wyatt. You know, the Air National Guard, like most 
of the Reserve Components, relies heavily on the NGREA accounts 
to make sure that the equipment that we do have is modernized. 
As far as the fill rates go, we are okay on the fill rates, the 
numbers of the specialized equipment that we have.
    But our stuff is old, and the cost of maintaining and 
repairing and making sure that it is serviceable and ready to 
go to fight increases all the time. That is why this 
recapitalization is such a big issue to the Air National Guard.
    And it is not just the fighter fleet. I am talking about 
the tankers. We have a source selection with the KC-46A. And 
again, I think the smart thing to do, as we decide where these 
airplanes will be located, is to field this airplane 
concurrently across all of the components at the same time as 
the Active Component and to make sure that we do that in a 
balanced fashion across all the components.
    That way General Stenner's force, my force, can relieve the 
operations tempo of the Active Component. We will remain 
operational. And the days of having strictly a strategic 
Reserve and strictly an operational force are unaffordable. We 
have to have an operational force across all three components. 
And the depth that the Guard and the Reserve bring allows us to 
have that strategic Reserve.
    But we have got to be trained on the same equipment with 
the same capabilities to be able to offer the country what it 
needs for the dollars. Specifically, I would say as we go 
through and take a look at the things that we need to improve 
on the older airframes that we have now--I talked a little bit 
about AESA radars--in the past the requirement for Air National 
Guard recapitalization of AESA radars for our fighting fleet 
has fallen below the funding line of the United States Air 
Force.
    I don't see any funding for that in the future, although 
there could be, as the Air Force may or may not enter into that 
SLEP process that I talked about, the service life extension 
program for some of the 40s and 50s.
    But we have been able to acquire some AESA radars for some 
of our F-15 fleet, thanks to the interest of congressional 
members, who in the past have through congressional adds funded 
some of that. That may or may not be available as we go on. I 
am very aware of the debate that is going on about 
congressional adds.
    So that in my mind makes the criticality of the NGREA 
account even more important, because we have not used the NGREA 
account in the past to do AESA radars, but we will certainly 
need to take a look at that as the only funding source now for 
recapitalization of our fleet.
    On the large airplane part, I would submit that we need to 
take a look at Large Aircraft Infrared and Countermeasures, 
LAIRCM, for some of our larger airplanes. We need to make sure 
that the Air National Guard C-130 fleet--we fly primarily the H 
models. We have only two wings of J models, and that is 16 
airplanes.
    All the rest are H2s, 3s, and those airplanes need to see 
the AMP, the Avionics Modernization Program, funded so that 
those aircraft can operate in conjunction with the newer United 
States Air Force J models. We need to take a look eventually at 
recapitalizing that older H fleet with Js.
    As far as the combat services part, agile combat services 
part, we can always improve the welding fleet, the stock of 
equipment that we have that supports the flyers.
    A lot of our equipment is extremely old there, and while 
our fill rate right now is about 88 percent, the equipment that 
we have, again, is old, and our weapons sustainment as far as 
the rolling stock and some of the support equipment that we 
have will continue to slide in the out-years, because it is 
getting too old, too expensive to maintain, and the dollars 
just simply aren't there to keep that serviceable fill rate of 
that 88 percent.
    I expect a 2 to 3 percent degrade in that capability as we 
go out into the future. So those are the areas that I would 
concentrate on.
    Mr. Runyan. Well, thank you.
    There is a quick question for General Carpenter. What is 
the status of the payback plans the Army is required to provide 
your Reserve Components with their equipment?
    General Carpenter. Sir, the program you referred to is 
1225.6 program, which essentially requires that if equipment is 
transferred from the Guard or Reserve to the Active Component, 
there is a payback plan required.
    We have learned a lot since we left equipment in theater in 
2004, 2005, and much of the most modern equipment we had in the 
National Guard was left in theater for follow-on units to 
utilize in the war fight. That payback plan is in place, and we 
are in the midst of receiving the payback right now from the 
Army in terms of funding equipment systems that we left behind 
there.
    What is going on right now in terms of how we handle that 
is when we leave sets of equipment in theater in Afghanistan, 
for instance, there is a payback plan put in place immediately. 
And so the Army and the Army National Guard and the Reserve 
Component have learned a lot about this process in terms of 
ensuring that the equipping levels inside of the three 
components of the Army remains the same.
    And so I am very confident that the payback plans that we 
have seen at this point are going to be honored and that we 
have got an adequate, stable plan for us to go into the future 
with.
    Mr. Runyan. That is good to hear. Thank you very much.
    Chairman, I yield back.
    Mr. Bartlett. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    As you know, I just arrived, so I apologize if you have 
already addressed this, but as the daughter of an Army 
reservist, I am proud to be here and appreciate all of you and 
the important role you have played and are continuing to play 
as you are now more operational in your scope.
    And in some ways that is concerning, but they have risen to 
the challenge, and I appreciate what all the families are doing 
in support of that. Of course, I would like to see the dwell 
time increased for the time that they are at home. And I know 
it is very stressful and hard on the families, and so I 
appreciate all that you are doing.
    Just a question, I guess, I have for General Wyatt 
regarding the Air Force. And I have heard that the fighter 
aircraft is reducing its amount of aircraft from 2,200 in 2008 
to now there is 2,000 in 2010. How will that reduction of 200 
aircraft affect the Air National Guard's ability to perform 
mission?
    General Wyatt. Ma'am, thanks for the question. You are 
correct. The Quadrennial Defense Review [QDR] and the National 
Defense Strategy has helped the Air Force determine the 
requirements for the combat air force fleet, and you are right. 
The correct number to meet those requirements is 2,000 total 
aircraft inventory with 1,200 what we call primary assigned 
aircraft inventory.
    We got to that 2,000 number with the CAF [Combat Air Force] 
reducts that we just worked our way through. The Air National 
Guard did lose some of its fighter fleet, as did the other 
components also, but right now we are pretty steady at that 
2,000 number. The President's 2012 budget has announced the 
loss of 18 more F-16s to the Air National Guard, and so we are 
beginning to drop below that 2,000 number.
    I think it is critical to watch that 2000 number and the 
1,200 number, because that is a moderate-risk way to meet the 
requirements of QDR. So I would submit that anything that drops 
below moderate risk when it comes to the security of this 
country needs to be examined closely.
    Whether we can retain numbers close to that 2,000 and 1,200 
depend a lot upon a lot of variable factors that I have 
mentioned before, whether or not the F-35 stays on its 
restructured acquisition schedule, and if not, the Air Force 
mitigation actions that may follow, such as service life 
extension programs for another of its block 40 and 50 F-16s.
    Right now the Air Force is looking at 300. That is a 
decision that doesn't have to be made at this point until we 
see what the F-35 does, but the time for that decision is 
coming, and we will have to make a decision one way or the 
other here pretty quickly.
    But we have worked our way in the Air National Guard 
through the CAF reducts to the point now where most of our 
units are settled. They know what the results of the CAF 
reducts are. We will continue through fiscal year 2012 to 
comply with CAF reducts. We will transfer some F-15s from Great 
Falls, Montana, to Fresno in California. There is a follow-on 
mission in the C-17 world for the unit in Great Falls, so that 
is a good news story.
    But right now we are okay. But our ability to field that 
2,000 and do the mission will depend upon all that part of the 
Air Force's recapitalization plan maturing, taking place, and 
being adequately funded to make sure that we don't drop below 
that 2,000 number that you mentioned before.
    Mrs. Hartzler. Very good. Well, I just want to make sure 
that our men and women have the equipment that they need and 
was concerned when there is reduction. It seems like we have a 
need for more equipment in a lot of areas, and so appreciate 
what you are doing. So thank you.
    Thank you very much, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    Mr. Reyes, you have another question?
    Mr. Reyes. Yes. Yes, I do. And I just wanted to make sure 
that we understood it for the record.
    When we were talking about the current Guard and Reserve 
force structure, was this an issue because--is there some kind 
of risk in terms of the end strength? And are there ongoing 
internal Army discussions about either the changes to the size 
or the content of the Army National Guard or Army Reserve?
    General Stultz. So far, sir, from the discussions I have 
been involved in, nobody has talked to me about reducing the 
size of the Army Reserve. I know that the message from the 
Secretary of Defense was taking the Active Army end strength 
down to----
    Mr. Reyes. Right.
    General Stultz [continuing]. Five hundred twenty, which is 
27,000.
    I think just as the chairman said in his opening remarks, 
the return on investment we are getting from our Reserve 
Components in terms of what it costs versus what we are 
getting, today I keep 25,000 to 30,000 Army Reserve soldiers on 
Active Duty continuously. About 20,000 to 25,000 of those are 
in Iraq, Afghanistan, 20 other countries around the world--
Ethiopia, Uganda, Tanzania, places like that, doing a lot of 
stability operations in addition to warfighting operations.
    I keep 6,000 to 7,000 on Active Duty back here in the 
United States. They are filling the training bases. They are 
the drill sergeants that are training our force--not the 
Reserve, the Active force. They are a lot of the doctors and 
nurses in our hospitals on our installations at Fort Sam 
Houston or Walter Reed.
    And the value for that for what we are paying is enormous 
when you look at what percent of the budget we account for. So 
I think what the discussion is going to--we need to be looking 
at is if we are forced because of cost, budgeting and whatever, 
to reduce the size of our Active force, we cannot, we cannot 
afford to reduce the size of our Reserve.
    In fact, we may need to look the other direction----
    Mr. Reyes. Right.
    General Stultz [continuing]. Because today we have 
constructed in the Army Reserve--I make up the combat support 
force, the enablers we like to call them. But if you look at 
how we have structured our Army today, between General 
Carpenter and myself for the Guard and Reserve, we account for 
75 percent of the Army's medical capability, 75 percent of the 
Army's engineer capability, 80 percent of the Army's 
transportation capability, 85 percent of the Army's civil 
affairs capability.
    And you can go on and on with that with the military police 
and other capabilities. We cannot afford, one, not to have an 
operational Reserve, and secondly, we cannot afford to look at 
reducing any end strength in the Reserve. That is my feeling.
    General Carpenter. Sir, as General Stultz mentioned, there 
have been no discussions that I have been a part of in terms of 
changing the size of either the Guard or Reserve with regard to 
the current initiative to reduce the size of the Active 
Component.
    There are some initiatives in terms of what we call AC/RC 
[Active Component/Reserve Component] rebalance in terms of what 
type of structure there is in the Guard and what type there is 
in the Reserve and what type there are in the Active Component.
    But we just went through what I would call a wholesale 
transformation in modularity here in the last 5 or 6 years. And 
for us in the Guard and Reserve, what builds readiness is 
stability, because when you reorganize a unit or when you stand 
up a new unit, and you are well aware of this, sir, it takes 
about 4 to 5 years to get to the readiness that you need to to 
be able to deploy that unit.
    And we, between General Stultz and I, we have been very 
emphatic with the leadership of the Army that that stability 
does build readiness, and if you are going to reorganize, let 
us be very thoughtful about how we do that. But, sir, there 
have been no discussions about changing the size of the Guard 
and Reserve inside of the Army that I know of.
    Mr. Reyes. Good, well, I am glad I asked the question. 
Thank you very much.
    Mr. Bartlett. Thank you.
    Mr. Critz, you have another question?
    Mr. Critz. Yes, sir. Thank you, Mr. Chairman.
    Just as a one quick follow-up on the training in the Abrams 
and the AH-64s, if you had your druthers, does it make more 
sense to have the same vehicles in the Guard and Reserve that 
they are using in the field so that as you are training, you 
can directly deploy? You don't have to go through another step.
    General Carpenter. Yes, sir. The obvious answer to that is 
yes. But understanding that we are operating in a budget 
constrained environment and that there are some limitations on 
what we can do and what the possibilities are here in terms of 
fielding equipment, when you take that into consideration, 
long-term, yes. We want to get to a single variant.
    Mr. Critz. Right.
    General Carpenter. But for the time being, the Army has 
remained fully committed to modernizing the Army National 
Guard. And I think, you know, as I mentioned in my opening 
statement, we are seeing more modern equipment come to the Army 
National Guard than we have ever seen in the history of the 
organization as far as I know.
    AH-64 Deltas, as we talked about before, it is a big deal. 
We took over a year to do the conversion, mobilizing and 
deployment of the first one of these units in Arizona. And it 
was a Herculean effort. And to the credit of the Arizona Guard 
and mobilization base inside of 1st Army, we did transition 
from the A model to the Delta model. But it took a long time to 
get there.
    And so, to your point, sir, I think the issue is that there 
is a gap there, as it does take some time to transition when 
there is a call.
    Mr. Critz. Okay, well, and the reason I circled back around 
to that is because I think a lot of the modernization--because 
Congress put in the money for the Guard and Reserve to be 
equipped at a higher rate.
    My, my question, though, is really because there is a lot 
of Guard and Reserve in Pennsylvania, and we know when a lot of 
your folks are being deployed at a much higher rate than anyone 
ever expected over the last decade, that when they go back 
home, they sort of scatter to the wind.
    And I saw some talk about suicide and I saw some talk about 
mental health issues. I am just wondering are you being given 
the resources? And how is your plan working to make sure that 
our men and women, when they do return, are being taken care of 
in the field?
    And that is for any or all of you, actually.
    General Carpenter. First of all, sir, back to the equipment 
issue, you know, Pennsylvania has the only Stryker brigade 
inside of the Army National Guard, and to that 56 Stryker 
brigade's credit, they deploy downrange in the accolades at 
that particular unit.
    And frankly, the awards that they got when they got back 
were truly inspiring, because this was a unit that rebuilt from 
scratch and that Pennsylvanians manned and that they deployed. 
And they did just great work in theater. And I think, you know, 
Pennsylvania and the Army National Guard can take a lot of 
pride in that effort for those soldiers.
    Suicides are a problem for us. And frankly, we are trying 
to get our arms around exactly, you know, what is the cause. 
First of all, you know, we need to gather the statistics and 
identify what is the demographic that we see that is inclined 
to do this. And for us in the Army National Guard, what we see 
is that 64 percent of the people who commit suicide have never 
been deployed. And so it is not necessarily a deployment issue.
    Only about 15, 20 percent are unemployed or have money 
problems. The common theme that we see across the 113 suicides 
we saw in 2010 was that they are predominantly white, they are 
predominantly male, and they are predominantly young. And so we 
have got a lot of those kinds of people inside of the Army 
National Guard courtesy of the combat organizations that you 
talked about, plus we recruit from the communities.
    We are a community-based organization, and a lot of our 
young soldiers joined while they were still in high school, and 
some shortly after they get out of high school. And what we 
find is that that cohort is not quite as resilient as their 
predecessors. As your generation or my generation, when we have 
some adversity, we just work through it. But that resilience 
doesn't necessarily find itself inside of the current soldiers 
we recruit to.
    And so the Army in conjunction with the Army National Guard 
has taken on a comprehensive soldier fitness program designed 
to build resiliency inside of the soldiers that we are 
recruiting into our organization. We are putting the money that 
we have against the initiatives that we have got out there to 
try and solve this problem.
    Probably the gap that we have right now is trying to figure 
out how to provide behavioral health to soldiers who have never 
been deployed. If you have been deployed, you have eligibility 
for VA [Veterans Affairs] benefits, those kinds of things.
    If you have never been deployed, probably the safety net is 
TRICARE Reserve Select. And the cost for an individual soldier 
is somewhere around $50 or $60 monthly. It doesn't seem like a 
lot to us, but for the most part it is, for a soldier who only 
gets a couple of hundred dollars for a drill weekend, that is a 
significant part of that paycheck.
    But we are encouraging soldiers to participate in that, and 
we are working through the states to provide behavioral health 
support to the soldiers, once we identify the ones who are 
struggling with those kinds of problems.
    General Wyatt. Sir, on behalf of the Air National Guard, 
similar concerns on suicide. Last year 2010--and these are 
tracked on a calendar year basis, not fiscal year basis--the 
Air National Guard suffered 19 suicides, surpassing the 17 that 
we saw many, many years ago.
    Along the same lines of the Army National Guard, the most 
causation, if there is such a thing, related to economics, 
inability to make mortgage payments, loss of job, personal 
relationships, and not necessarily with deployments overseas.
    We have seen last year the Air Force increase its budget by 
about 25 percent for mental health professionals to help with 
the force. We are working with the United States Air Force at 
the present time to see if we can avail ourselves of some of 
that increase in their funding for mental health.
    But absent that, we have taken steps this year to lean 
forward and hire mental health professionals at each of our 89 
air wings across the 54 jurisdictions. The wing in the Air 
National Guard is really the focus point.
    And we are attempting to put up a mental health 
professional at each of the wings that would be available to 
minister not only to those who have deployed, but also to those 
who have not deployed, and to work with our Adjutants General 
and our wing commanders to make sure that we don't wait on the 
phone call to come, that we take proactive action when we see 
something developing that is not quite right.
    The key is putting eyes on those individuals. We are about 
two-thirds of the way through fielding that, and we have taken 
that money out of our own international Guard budget. And we 
have also had a big chunk of that cost that we have used Yellow 
Ribbon reintegration money to help fund. And so far, knock on 
wood, it is paying dividends. At this time in 2010 we had six 
suicides. To date, now we have two.
    We hope that the effort that we are putting not just 
through the money part of it, but also encouraging through 
other programs that we work in conjunction with the United 
States Air Force--like the wingman program, the ace program, 
and some of the other programs that we have that helps focus on 
our individuals, we are able to make those personal contacts 
through those wing health professionals, through our chaplain 
corps, through our JAG [Judge Advocate General] corps.
    And we find that we are now saving more individuals or 
preventing more suicides than are actually occurring. So these 
are starting to make and pay dividends for us.
    General Stenner. I would just echo the comments that 
General Wyatt just made and tell you that the wingman program 
itself, it depends on leadership. And a lot of what we are 
doing right now is in fact a leadership issue, when we are 
emphasizing on those wingmen day programs the fact that we as 
leaders and then as friends and coworkers need to look each 
other in the eye and say, ``If there is an issue, you have got 
to tell me about it.'' And there has got to be no stigma 
attached to that.
    Whether you are asking the question and it is an 
embarrassing moment or whether you are responding to that with 
``I do have an issue, and I do solicit some help,'' that, I 
believe strongly, that leadership emphasis on that has led to 
those saves that we are now starting to see and can accommodate 
these folks and translate what we did to save that person to 
the next individual that comes along and articulates an issue.
    So I believe we are both reducing the suicide rate and 
starting to identify the saves and what it took to do that and 
incorporating those into training programs as well as the 
educational and the mental health pieces that we have got along 
that line as well.
    General Stultz. I will just add two quick comments, because 
everything that the others have said applies to us. Our 
suicides are not occurring predominantly because of deployment 
stress or anything else. It is something else going on in that 
soldier's life.
    And the two focus areas that I have really put my 
leadership against--one, you have got to figure out what is 
going on in the soldier's head from the start, to the point 
where I have said, you know, our recruiters ought to be 
counselors.
    When somebody walks in a recruiting station and says, ``I 
want to join the Army,'' instead of saying, ``Can you pass the 
drug test? Can you pass a physical,'' the first question ought 
to be ``Why? What is going on in your life that makes you want 
to join the Army?''
    And if he talks about not having a job, having a broken 
marriage, something, then a red flag goes up. We are not your 
solution--because I think a lot of soldiers come to us looking 
for help. There is something else going on in their life, and 
they are looking for us to fix it. So we have got to figure out 
what is going on in their life.
    And secondly, for the Reserve Component, unlike the Army 
that went after the battle buddy strategy--so if you see your 
buddy in the motor pool, and he is acting strange or whatever, 
you got to reach out and help--our battle buddies are our 
families, because we only see our soldiers 2 days out of the 
month.
    And so any suicide training about reducing stigma, about 
asking for help, has to include the family. You have got to 
educate and bring the family in. Otherwise, you are going to 
miss it, because they don't commit suicide at the drill hall. 
They commit suicide back home, and their family is there.
    And so we are stressing get to know what is going on in the 
soldier's mind from the beginning, and secondly, get the family 
involved and get them as part of that training program.
    Mr. Critz. Well, thank you very much. And believe me, I 
have tremendous respect for the Guard and Reserve, because this 
last decade really stressed your forces, and this is really 
what makes America great. So thank you very much for your 
testimony.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    I appreciate this question and your answers on suicide. I 
have been concerned about suicide rates in our forces. I am 
particularly concerned about the suicide rates and the 
increasing homelessness in our veterans. I don't want us to 
mirror the Vietnam era, and I am very pleased that you all are 
very aggressively addressing this in the forces.
    And I hope that we can be more successful than we have been 
in that transition from Active Duty to retirement when the VA 
takes over and somehow a lot of our young people drop through 
the tracks. And there are a lot of civilian organizations out 
there that want to help, and we are working very hard to make 
sure that there is an opportunity for them to do that.
    This has been a very good hearing. Fortunately, as I had 
hoped, my colleagues asked essentially all of the questions 
that I would have asked. There are a couple of tangential 
questions that we will submit for the record, if you would.
    As I was sitting here listening to the questions and the 
testimony, I was reminded that a week or so ago I went to the 
deployment of one of our Guard units. This is a pretty 
emotional experience for me, and I was once again reminded how 
much we owe you and your people.
    I was talking to the company commander, and about 20 feet 
from him was a very attractive young lady with about an 18-
month-old boy in her arms. And the boy was reaching out toward 
the company commander and crying. And he said, ``Oh, he is 
annoyed that I am ignoring him.''
    And so I went over and picked up the little boy from his 
mother's arms. And then he told me that his wife of 6 months 
pregnant. She is going to have another boy, and they have 
already named that boy. And I thought, he is going to return in 
a year, and he is going to Egypt. And when he comes back, his 
son is going to have to be reintroduced to his father, and he 
is going to see a new son, 9 months old, that he has never seen 
before.
    And then after the assembly and they were saying their 
goodbyes to each other, I was impressed with how these young 
couples in their very emotional goodbyes could ignore all the 
other people around them. They were in a world of their own as 
they were saying those last goodbyes before that year's 
departure.
    And I was reminded again how much we owe you. Thank you 
very much for your leadership. Please thank all of the people 
out there in your commands that are doing so much for our 
country. This has been a very good hearing. Thank you for your 
testimony.
    Panel members, thank you for your questions. We will now be 
adjourned.
    This committee will now be adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 1, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 1, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5806.001
    
    [GRAPHIC] [TIFF OMITTED] T5806.002
    
    [GRAPHIC] [TIFF OMITTED] T5806.003
    
    [GRAPHIC] [TIFF OMITTED] T5806.004
    
    [GRAPHIC] [TIFF OMITTED] T5806.005
    
    [GRAPHIC] [TIFF OMITTED] T5806.006
    
    [GRAPHIC] [TIFF OMITTED] T5806.007
    
    [GRAPHIC] [TIFF OMITTED] T5806.008
    
    [GRAPHIC] [TIFF OMITTED] T5806.009
    
    [GRAPHIC] [TIFF OMITTED] T5806.010
    
    [GRAPHIC] [TIFF OMITTED] T5806.011
    
    [GRAPHIC] [TIFF OMITTED] T5806.012
    
    [GRAPHIC] [TIFF OMITTED] T5806.013
    
    [GRAPHIC] [TIFF OMITTED] T5806.014
    
    [GRAPHIC] [TIFF OMITTED] T5806.015
    
    [GRAPHIC] [TIFF OMITTED] T5806.016
    
    [GRAPHIC] [TIFF OMITTED] T5806.017
    
    [GRAPHIC] [TIFF OMITTED] T5806.018
    
    [GRAPHIC] [TIFF OMITTED] T5806.019
    
    [GRAPHIC] [TIFF OMITTED] T5806.020
    
    [GRAPHIC] [TIFF OMITTED] T5806.021
    
    [GRAPHIC] [TIFF OMITTED] T5806.022
    
    [GRAPHIC] [TIFF OMITTED] T5806.023
    
    [GRAPHIC] [TIFF OMITTED] T5806.024
    
    [GRAPHIC] [TIFF OMITTED] T5806.025
    
    [GRAPHIC] [TIFF OMITTED] T5806.026
    
    [GRAPHIC] [TIFF OMITTED] T5806.027
    
    [GRAPHIC] [TIFF OMITTED] T5806.028
    
    [GRAPHIC] [TIFF OMITTED] T5806.029
    
    [GRAPHIC] [TIFF OMITTED] T5806.030
    
    [GRAPHIC] [TIFF OMITTED] T5806.031
    
    [GRAPHIC] [TIFF OMITTED] T5806.032
    
    [GRAPHIC] [TIFF OMITTED] T5806.033
    
    [GRAPHIC] [TIFF OMITTED] T5806.034
    
    [GRAPHIC] [TIFF OMITTED] T5806.035
    
    [GRAPHIC] [TIFF OMITTED] T5806.036
    
    [GRAPHIC] [TIFF OMITTED] T5806.037
    
    [GRAPHIC] [TIFF OMITTED] T5806.038
    
    [GRAPHIC] [TIFF OMITTED] T5806.039
    
    [GRAPHIC] [TIFF OMITTED] T5806.040
    
    [GRAPHIC] [TIFF OMITTED] T5806.041
    
    [GRAPHIC] [TIFF OMITTED] T5806.042
    
    [GRAPHIC] [TIFF OMITTED] T5806.043
    
    [GRAPHIC] [TIFF OMITTED] T5806.044
    
    [GRAPHIC] [TIFF OMITTED] T5806.045
    
    [GRAPHIC] [TIFF OMITTED] T5806.046
    
    [GRAPHIC] [TIFF OMITTED] T5806.047
    
    [GRAPHIC] [TIFF OMITTED] T5806.048
    
    [GRAPHIC] [TIFF OMITTED] T5806.049
    
    [GRAPHIC] [TIFF OMITTED] T5806.050
    
    [GRAPHIC] [TIFF OMITTED] T5806.051
    
    [GRAPHIC] [TIFF OMITTED] T5806.052
    
    [GRAPHIC] [TIFF OMITTED] T5806.053
    
    [GRAPHIC] [TIFF OMITTED] T5806.054
    
    [GRAPHIC] [TIFF OMITTED] T5806.055
    
    [GRAPHIC] [TIFF OMITTED] T5806.056
    
    [GRAPHIC] [TIFF OMITTED] T5806.057
    
    [GRAPHIC] [TIFF OMITTED] T5806.058
    
    [GRAPHIC] [TIFF OMITTED] T5806.059
    
    [GRAPHIC] [TIFF OMITTED] T5806.060
    
    [GRAPHIC] [TIFF OMITTED] T5806.061
    
    [GRAPHIC] [TIFF OMITTED] T5806.062
    
    [GRAPHIC] [TIFF OMITTED] T5806.063
    
    [GRAPHIC] [TIFF OMITTED] T5806.064
    
    [GRAPHIC] [TIFF OMITTED] T5806.065
    
    [GRAPHIC] [TIFF OMITTED] T5806.066
    
    [GRAPHIC] [TIFF OMITTED] T5806.067
    
    [GRAPHIC] [TIFF OMITTED] T5806.068
    
    [GRAPHIC] [TIFF OMITTED] T5806.069
    
    [GRAPHIC] [TIFF OMITTED] T5806.070
    
    [GRAPHIC] [TIFF OMITTED] T5806.071
    
    [GRAPHIC] [TIFF OMITTED] T5806.072
    
    [GRAPHIC] [TIFF OMITTED] T5806.073
    
    [GRAPHIC] [TIFF OMITTED] T5806.074
    
    [GRAPHIC] [TIFF OMITTED] T5806.075
    
    [GRAPHIC] [TIFF OMITTED] T5806.076
    
    [GRAPHIC] [TIFF OMITTED] T5806.077
    
    [GRAPHIC] [TIFF OMITTED] T5806.078
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 1, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. LTG Stultz, not all of the Army Reserve Component 
Shadow systems authorized in the Fires Brigades and Battlefield 
Surveillance Brigades are funded. What is the Army's plan to fund 
these?
    General Stultz. HQDA has put on hold the funding of Shadow systems 
within the Fires Brigades and Battlefield Surveillance Brigades until 
the completion of the HQDA Military Intelligence Rebalance Plan (MI 
Rebalance Plan). The plan will determine the Shadow system requirements 
for the Shadow system in the Fires Brigades and the Battlefield 
Surveillance Brigades (BfSB).
    Currently, the Army Reserve is scheduled to stand-up four Shadow 
platoons (one for each (BfSB) Military Intelligence Battalion). There 
are four Shadow systems per platoon. A total of 16 Shadow systems. The 
activation dates and locations will be determined after the completion 
of the MI Rebalance Plan. These four Shadow platoons represent 3.5% 
(four platoons out of 112) of the Army-wide force structure.
    Mr. Bartlett. LTG Stultz and MG Carpenter, as you are aware, the 
Army has indicated the acquisition objective for new production Utility 
and Up-Armor Humvees is complete and the Army now plans to transition 
from new production Humvees to focusing on ``recapping'' those in 
current inventory and those returning from Iraq.
    What is the Army National Guard's and Army Reserve's position 
toward the Army's new acquisition strategy for Humvees?
    General Stultz. The Army Reserve supports the new acquisition 
strategy for HMMWV. The AR is currently 94% equipment on hand for 
HMMWV.
    Mr. Bartlett. Night vision systems such as goggles, aiming lights, 
and thermal detection devices are key enablers for Army forces. With 
the nation engaged in multiple combat, counter-terror, and no fly zone 
operations, we are relying increasingly on our Army National Guard and 
Reserve Forces to support these types of military operations, as well 
as humanitarian/disaster relief and recovery operations. Ensuring that 
National Guard and Reserve forces have the necessary training and 
equipment to participate in joint operations is a high priority.
    Does your budget include funding to continue modernization of 
National Guard and Reserve night vision capabilities, to include state 
of the art night vision goggles, aiming lights, and thermal detection 
devices?
    General Stultz. HQDA has resourced the Army Reserve's requirements 
in Night Vision Devices and Thermal Weapon sights and fielding of this 
equipment is on-going. Additionally, the Army's FY 12 PB included 
funding to support the future fielding of Enhanced Night Vision Devices 
to the Army Reserve. This capability will continue to modernize the 
Army Reserve's Night Vision Capabilities.
    Mr. Bartlett. Could you provide an assessment of your strategy and 
resourcing to equip our Army National Guard and Reserve forces with 
these advanced night vision capabilities?
    General Stultz. Current resourcing planned for the Army Reserve is 
adequate for known requirements and will continue to be reviewed and 
refined with future Army POM submissions.
    Mr. Bartlett. What are the National Guard's shortfalls in night 
vision capabilities and requirements to maintain its readiness to 
fulfill homeland defense and state disaster recovery and relief 
missions?
    General Stultz. As the first Title X responder, the Army Reserve 
has the night vision capabilities required to provide support to 
homeland defense and security. The Army Reserve's night vision systems 
EOH is 100%.
    Mr. Bartlett. When do you anticipate fulfilling these requirements?
    General Stultz. The Army Reserve requirements for Night Vision 
System continue to increase and over the next two fiscal years due to 
force structure equipment requirements increase. The Army Reserve 
continues to work with HQDA to fill these requirements.
    Mr. Bartlett. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment?
    General Stultz. Presently, the HQDA's transparency process is 
manually-intensive with data gaps between reports and existing 
programs, preventing 100% accuracy. However, bridging those gaps is a 
top priority for the Army. The Army Reserve is a vested stakeholder in 
this initiative.
    Simultaneously, the HQDA is developing a systemic process to 
replace the existing manual process. Changes to property the 
accountability system have been implemented to register unique 
identification tags that are now affixed to newly produced equipment. 
This increases the Army's ability to trace equipment delivery to a unit 
and tie it back to an appropriation. Although there has been much 
advancement in the development of a systematic process, this is an 
ongoing process that requires much more work. The Army Reserve actively 
supports these transparency efforts. This is an ongoing process.
    Mr. Bartlett. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Stultz. The Army is improving a manual transparency process 
and simultaneously developing a systematic process to trace the 
delivery of a piece of equipment to a unit and tie it back to an 
appropriation. The Army Reserve is a vested stakeholder in this HQDA 
imitative.
    In response to CNGR 42 and 43 requirements, the Army Reserve is 
arduously working with Headquarters, Department of the Army (HQDA) on 
the improvement of current equipment delivery and distribution 
processes to enable accountability, transparency, and traceability of 
equipment distributions.
    The Army has implemented changes to its property accountability 
system to register unique identification tags that are now affixed to 
newly produced equipment. The Army Reserve actively supports these 
transparency efforts for a systematic process to certify delivery of 
equipment. The Army goal is to tie that equipment certification back to 
an appropriation. This is an ongoing process.
    Mr. Bartlett. What is the total investment required to adequately 
resource an ``operational reserve''? And, are the National Guard and 
Reserve Components organized and capable of maintaining and managing 
this increase in equipment inventory through the out-years?
    General Stultz. The Army Reserve estimates that it would cost $8.9B 
dollars to modernize 100% of the current Army Reserve equipment 
requirements. Currently, the Army Reserve is organized and capable of 
maintaining and managing this increase in equipment inventory. However, 
it is anticipated that the Army Reserve will need increased resourcing 
for maintenance, training, and facilities to sustain the Army Reserve 
inventory as it continues to modernize and more technical. The MRAP is 
an example of a system that will create and require additional 
resourcing for training and to modernize our maintenance capabilities 
and facilities.
    Mr. Bartlett. Background: The Department of Defense's 2010 report 
on its Quadrennial Defense Review (QDR) recognized the contributions of 
the National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role. The QDR also required a 
``Comprehensive Review of the Future Role of the Reserve Component'' 
which is expected to reshape and redefine the National Guard and 
Reserve Components.
    Please provide details regarding the status of this review. How 
will the Guard and Reserve Components be impacted by these findings?
    The QDR reported asserted that the reserve component has untapped 
capability and capacity. Could you comment on the type and quantity of 
untapped capability and capacity you see in the National Guard and 
Reserve Component now?
    General Stultz. Report findings and recommendations, released by 
the Secretary of Defense in April 2011, confirm the need for a fully 
integrated Total Force, and acknowledges the necessity for future use 
of the RC as an operational force--to deter potential adversaries, to 
respond to unforeseen contingencies, to preserve the All-Volunteer 
Force, and to maintain connected to the American public. Key 
recommendations affecting the Army Reserve include the need for both 
assured funding (in the base budget) and legislation to provide assured 
access for supporting Combatant Commander Theater Engagement activities 
and for domestic disaster response.
    Recommendations from the Report, along with results from previous 
studies, such as the Report from the Commission on National Guard and 
Reserves provide the foundation for developing a comprehensive DoD 
execution strategy for use of the RC in an operational role, and for 
other important changes needed to fully leverage future contributions 
of the RC to the nation.
    For the past ten years RC capabilities and capacity have been fully 
committed to ``a nation at war.'' However, as draw-downs in Iraq and 
Afghanistan lessens the demand for military forces, RC capabilities and 
capacity become available over time for other missions. The 
unpredictable security environment of the foreseeable future combined 
with the fiscal realities we now face create an imperative to leverage 
both RC operational experiences and RC capabilities and capacity as a 
source to meet future global defense obligations.
    Vital military capabilities provided by AR Soldiers (enhanced by 
civilian skills), when integrated into Total Army processes, can be 
used in the future to provide greater support to theater security 
operations world-wide, domestic disaster response (with appropriate 
enabling legislation), and for leveraging Army Reserve civilian skills 
in support of emerging requirements.
    Additional capacity provided by the RC, when fully integrated into 
the Total Force is essential for providing expeditionary enablers for 
future theater engagement activities, contingency operations at home 
and abroad, for providing strategic depth and for preserving the All-
Volunteer Force.
    Mr. Bartlett. What is your most critical equipment shortfall?
    General Stultz. The AR has seen improvements in EOH (91%) and 
modernization (67%). Critical shortages remain in Command and Control 
Systems, Construction Equipment, Civil Affairs/Military Information 
Support Operations (PSYOP) Equipment, Route Clearance Equipment, a 
Replacement for the Ambulance HMMWV and Training Simulators.
    Mr. Bartlett. How can we, as Congress, help in eliminating this 
equipment shortfall?
    General Stultz. Continued support in National Guard Reserve 
Equipment Appropriation (NGREA) and Congressional Plus-ups for the Army 
Reserve. Both enable the Army Reserve to procure modernized equipment 
for training and mission support that the Army is unable to provide. In 
addition, continued support to the total Army equipment budget request 
supports the Army Reserve.
    Mr. Bartlett. What are your thoughts on the National Guard and 
Reserve Equipment Account that Congress has approved in previous fiscal 
years?
    General Stultz. The Army Reserve greatly appreciates the support it 
receives in National Guard Reserve Equipment Appropriation (NGREA). The 
NGREA and Congressional Plus-Ups are invaluable to the Army Reserve and 
enable the procurement of modernized equipment and training simulators 
to increase our operational readiness. This fiscal year (FY 11), the 
Army Reserve was appropriated $140M, 16% of the total NGREA.
    Mr. Bartlett. Has this account been effective?
    General Stultz. Yes, the NGREA and Congressional Adds are most 
effective. This resourcing enables the Army Reserve to fill the 
resourcing gap to meet the Army Campaign Plan objective to 
operationalize the AR.
    Mr. Bartlett. Are you able to obligate funds from this account in a 
timely manner?
    General Stultz. Yes. Historically, the Army Reserve has obligated 
100% of the NGREA within the three year time period. The Army Reserve 
is now working toward the goal to obligate the funds in accordance with 
the congressional guidance of 80% the first year, 90% the second year 
and 100% the third year. However, meeting the first year obligation 
rate for the FY11 NGREA will be a challenges due to the late 
Appropriation. The Army Reserve is prepared to begin execution of the 
funds once received.
    Mr. Bartlett. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment.
    General Stenner. The Air Force Reserve (AFR) has greatly improved 
its equipment tracking capability through process improvements within 
the Air Force Reserve Command (AFRC) and business practices 
improvements with the Air Staff, the Secretary of the Air Force (SAF), 
and the Office of the Secretary of Defense (OSD). A re-tooled and fully 
staffed requirements organization has been created at the AFRC 
Headquarters, AFRC/A5R, that is charged with all of the AFR's equipment 
and modernization related duties. The AFR Headquarters staff (AF/RE) 
has been tasked to work closely with SAF, OSD, and Congress to keep 
them informed of all equipment issues affecting the AFR. A Prioritized 
Integrated Requirements List (PIRL) is created annually and then 
updated throughout the requirements cycle to reflect the ever changing 
equipment and modernization needs of the AFR. The AFR's National Guard 
& Reserve Equipment Account (NGREA) Procurement Plan undergoes rigorous 
reviews by the AFRC Corporate Structure, SAF, and OSD before being sent 
to Congress for approval. The AFR requirements team works in concert 
with the Air National Guard and Regular Air Force to ensure its 
equipment and modernization plans mesh with the needs of the Air Force 
and provide the Combatant Commanders the necessary combat capability 
for today's fight and future threats.
    Mr. Bartlett. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Stenner. The Air Force Reserve (AFR) requirements process 
is a bottom-up driven enterprise that undergoes detailed review at 
every level. A requirement transits Combat Planning Councils, 
Requirements Development Teams, Reserve Requirements Tribunals, and the 
Air Force Reserve Command (AFRC) Corporate Structure before it is 
approved by the Commander of AFRC. Once the requirement is approved, it 
competes for funding from various sources including the National Guard 
& Reserve Equipment Appropriation (NGREA). If it is placed on the NGREA 
Procurement Plan, the item is approved through the Secretary of the Air 
Force and the Office of the Secretary of Defense channels before being 
sent to Congress for approval. Once approval is received, the AFR works 
with the system program offices to get it on contract as soon as 
possible. The AFRC's newly re-tooled requirements organization, AFRC/
A5R, and the AFRC Program Element managers constantly monitor the 
contract execution. A semi-annual review of all programs is completed 
by AFRC/A5R and funds are re-allocated from under-performing contracts 
to ones that are performing or to newly vetted requirements that are 
urgently needed by the warfighter. The proof of how the AFR follows 
through on providing needed equipment is evident in our historical 12-
year, 99.7% NGREA execution rate.
    Additionally, in order to improve first and second year execution 
of NGREA funding the AFR has committed to developing a strategy of 
producing a NGREA three year procurement plan to enable longer-term and 
higher-confidence planning for the Air Force Acquisition Program 
Management Offices. This plan is designed to prepare the Air Force 
System Program Offices for the uncertainty of NGREA amounts by banding 
funding levels into three categories: highest likelihood, significant 
likelihood, and potential likelihood of funding amounts and AFR 
strategies to execute funding for each category. The AFR NGREA three-
year procurement and investment plan will be revised annually.
    Mr. Bartlett. a) What is the total investment required to 
adequately resource an ``operational reserve''?
    b) And, are the National Guard and Reserve Components organized and 
capable of maintaining and managing this increase in equipment 
inventory through the out years?
    General Stenner. a) The Air Force Reserve (AFR) is currently funded 
and equipped as a ``strategic reserve'' but leveraged daily as an 
``operational reserve'' force with the use of the military personnel 
appropriation (MPA). The MPA funding that we receive is gradually 
decreasing, limiting our participation as an ``operational force''.
    b) We are organized and currently have the capacity to increase our 
capability if the proper manpower and equipment resources were to 
increase in the out-years. We maintain the most efficient, experienced 
and operationally capable force, but operate some of the oldest 
aircraft in the Air Force fleet. For us to fully capture the capability 
of an ``operational reserve'', we will require increases in all facets 
of funding from sustainment to recapitalization.
    Mr. Bartlett. Background: The Department of Defense's 2010 report 
on its Quadrennial Defense Review (QDR) recognized the contributions of 
the National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role. The QDR also required a 
``Comprehensive Review of the Future Role of the Reserve Component'' 
which is expected to reshape and redefine the National Guard and 
Reserve Components.
    Please provide details regarding the status of this review. How 
will the Guard and Reserve Components be impacted by these findings?
    The QDR reported asserted that the reserve component has untapped 
capability and capacity. Could you comment on the type and quantity of 
untapped capability and capacity you see in the National Guard and 
Reserve Component now?
    General Stenner. We applaud the Department on all that has been 
done to support Air Force Reserve Citizen Airmen participation as Total 
Force partners on the Joint team and the consideration given to the 
right balance and mix of missions across components. Current 
initiatives are examining personnel management policies that will 
provide a flexible Continuum of Service to allow Reserve members to 
serve at varying levels of participation in either a part-time or full-
time status. We urge the Department to finish the work now underway and 
make the Continuum of Service a reality.
    As a result of a comprehensive review of the Military Personnel 
Appropriation (MPA) Man-day program, clear guidance has been issued on 
member leave, tour length, and notification requirements. Continued 
funding of the MPA program in base budgets will ensure Air Reserve 
Component (ARC) access to meet non-surge, steady state demand. In 
addition, continued access to our operationally-ready Air Force 
Reserve, the Department must to continue to program the use of the 
Reserve Component in its base budgets as well as identify imbalances in 
Total Force capabilities and equities. Utilizing ARC forces for 
predictable operational rotations as well as future roles in Agile 
Combat Support mission areas such as training and Building Partnerships 
will further support the ARC in their operational role.
    Mr. Bartlett. a) What is your most critical equipment shortfall? b) 
How can we, as Congress, help in eliminating this equipment shortfall?
    General Stenner. a) The most critical equipment shortfall for the 
Air Force Reserve (AFR) currently is the Large Aircraft Infrared 
Countermeasures (LAIRCM) system for our legacy mobility aircraft fleet. 
Our C-130 fleet, as a result of the National Guard & Reserve Equipment 
Appropriation (NGREA) funding, is well on its way to being completely 
modified. Air Mobility Command (AMC) has a plan to modify our C-5's but 
currently are last in line to receive the upgrade. The KC-135 community 
has defined a cost-effective LAIRCM solution but is without funding.
    b) Congress has been extremely generous to the AFR in the last few 
years with additive resources for modernizing our aircraft. Providing a 
stable (i.e. Baseline) funding stream for LAIRCM across the AFR 
mobility fleet would greatly enhance the effectiveness and efficiency 
of the program while assuring the safety of our aircrews during combat 
operations.
    Mr. Bartlett. a) What are your thoughts on the National Guard and 
Reserve Equipment Account that Congress has approved in previous fiscal 
years?
    b) Has this account been effective?
    c) Are you able to obligate funds from this account in a timely 
manner?
    General Stenner. a) Congress has been extremely generous in 
providing the National Guard & Reserve Account (NGREA) funding for the 
modernization and purchase of Air Reserve Component equipment. Without 
these funds, the modernization of Air Force Reserve (AFR) aircraft 
would have been almost non-existent. The AFR does not usually rank high 
enough on Lead Major Command 's modernization priority lists to receive 
Program Objective Memorandum (POM'd) funding. In today's constrained 
fiscal reality, that fact has even greater impact.
    b) The account has been extremely effective and efficient for both 
the Air National Guard (ANG) and AFR. Since we upgrade legacy 
platforms, the goal is to provide an 80% solution at 20% of the cost. 
We do this by working closely with our ANG counterparts to streamline 
contracts and utilize commercial-off-the-shelf (COTS) products. This 
relieves us of the burden of expensive research and development and 
puts the funding directly into the purchase of increased combat 
capability.
    c) Full obligation and execution within the 3-year life of NGREA 
funds has never been an issue. In the last 12 years, the AFR has 
executed 99.7% of their allocated NGREA funds. The difficulty lies in 
our first year obligation rates and the reasons for those difficulties 
are many. We, in partnership with the ANG, the Air Force Headquarters 
Staff for Acquisitions (SAF/AQ), the Air Force Materiel Command (AFMC), 
and the individual system program offices (SPOs), are currently working 
closely together to identify what the difficulties are and to implement 
new policies, procedures, and guidelines to ensure we meet the 
expectation of Congress.
    Mr. Bartlett. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment?
    General Wyatt and General Carpenter. Over the past few years, the 
Army has significantly improved transparency within its equipment 
procurement and distribution processes. Beginning with the FY09 budget 
submission, the Army began expanding budget exhibits to include 
component-level breakouts of funding and quantities. This enables the 
Army to track funding through the distribution of new equipment. The 
new process is fully auditable and will allow delivered equipment to be 
traced back to its funding source. The Army met full compliance in FY11 
by tracking all programs of interest that have Reserve Component 
allocations.
    The Air Force has also changed their process to increase 
transparency, primarily by moving to central management of its vehicle 
fleet. This allows the Air Force to track their vehicle fleet from 
acquisition to distribution.
    Mr. Bartlett. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Wyatt and General Carpenter. When Congress provides 
National Guard and Reserves Equipment Account (NGREA) funding there are 
internal mechanisms to ensure the Army executes funding in accordance 
with Congressional intent and the Army National Guard (ARNG) receives 
the corresponding equipment.
    During the year prior to the appropriation, the ARNG works through 
the Secretary of the Army Staff to determine which Critical Dual Use 
items have current contracts in the year of the appropriation and 
coordinates contract headspace for NGREA funding. The ARNG coordinates 
the transfer of NGREA funding to Army Program Managers and tracks it 
through delivery to ARNG units.
    Similarly, the Air National Guard also communicates regularly with 
the Air Force regarding the disbursement of funds. The Air Force is 
also providing assistance to the Air National Guard by issuing policy 
letters that will drive process changes to speed the obligation of 
NGREA funds.
    Mr. Bartlett. a) What is the total investment required to 
adequately resource an ``operational reserve''?
    b) And, are the National Guard and Reserve Components organized and 
capable of maintaining and managing this increase in equipment 
inventory through the out years?
    General Wyatt and General Carpenter. a) To remain an ``operational 
reserve'' the Army National Guard (ARNG) requires an additional $401M 
annually for training days and operations and support funding. The 
additional days support required training to meet the readiness 
standards prior to mobilization and the requisite ground and air 
Operations Tempo to support this additional training. This additional 
investment will preserve the significant ARNG readiness improvements of 
the last decade ensuring trained and ready ARNG units are available 
when needed while also leveraging the cost effective nature of the ARNG 
as part of the Total Army.
    b) The Air National Guard (ANG) is well organized and capable of 
maintaining and managing an increase in equipment inventory through the 
out years. The ANG is no longer a strategic reserve of the Air Force, 
but has been an operational force, working side by side with the active 
component, while maintaining a presence in the community to support 
domestic needs. The investment required continues to vary based on 
mission changes, and force structure modernization needs. However, the 
total investment required to achieve comparable capability, and fill 
gaps in capabilities for current mission sets, is documented in the ANG 
Major Weapons Systems Modernization Requirements Book and the Domestic 
Operations Equipment Requirements Book for 2011. Our field driven 
modernization process has identified approximately $11 billion in 
requirements for weapons system modernization and $592 million needed 
for domestic operations equipment.
    Mr. Bartlett. Background: The Department of Defense's 2010 report 
on its Quadrennial Defense Review (QDR) recognized the contributions of 
the National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role. The QDR also required a 
``Comprehensive Review of the Future Role of the Reserve Component'' 
which is expected to reshape and redefine the National Guard and 
Reserve Components.
    Please provide details regarding the status of this review. How 
will the Guard and Reserve Components be impacted by these findings?
    The QDR reported asserted that the reserve component has untapped 
capability and capacity. Could you comment on the type and quantity of 
untapped capability and capacity you see in the National Guard and 
Reserve Component now?
    General Wyatt and General Carpenter. The ``Comprehensive Review of 
the Future Role of the Reserve Component'' was completed by the Office 
of the Vice Chairman of the Joint Chiefs of Staff and the Assistant 
Secretary of Defense for Reserve Affairs on April 5, 2011. The report 
is available for public consumption.
    The findings of the report will help drive the Department of 
Defense's legislative and budgetary proposals for future fiscal years. 
A major finding of the report is the need to amend Title 10, United 
States Code, Section 12304. A legislative proposal related to that 
finding was submitted with the Department's Fiscal Year 2012 
legislative proposals.
    According to the the report: ``Using the Guard and Reserve to best 
advantage increases the overall capability and capacity of the United 
States to defend its interests. In the absence of major conflict, the 
Reserve Component is best employed for missions and tasks that are 
predictable, relatively consistent over time, and whose success can be 
substantially enabled by long-term personal and geographic 
relationships.
    The Reserve Component is well suited for use as a source of 
strategic depth as well as in a wide variety of operational roles, 
including: (1) rotating operational units deployed in response to 
Combatant Commander (CCDR) needs and Service requirements; (2) units 
and teams deployed in support of CCDR Theater Security Cooperation and 
Building Partner Capacity activities around the globe; (3) individual 
augmentees who can be deployed in response to CCDR, Defense agency, or 
Service needs; (4) units, teams, and individuals to support core 
Unified Command Plan (UCP) missions such as HD and DSCA as well as to 
support Governors in state security; and (5) units, teams, and 
individuals assigned to support DoD or Service institutional needs.''
    Mr. Bartlett. What is your most critical equipment shortfall? How 
can we, as Congress, help in eliminating this equipment shortfall?
    General Wyatt and General Carpenter. The Army National Guard's 
(ARNG) most critical equipment shortfall is General Engineering 
Equipment.
    The Army is currently modernizing key pieces of General Engineering 
equipment and continuing a progressive path towards fielding lower 
density equipment. Systems such as the Hydraulic Excavator and Dozers 
are transitioning into modernization fielding. Based on current 
fielding plans, the Army National Guard will have 75% of its required 
Excavators and Dozers by FY17.
    The Army continues to improve the Equipment On Hand and 
modernization levels for the ARNG. The ARNG's equipment requirements 
and priorities are included in the Army's program. Congress' support of 
the National Guard and Reserves Equipment Account funding has been 
critical in providing the ARNG Critical Dual Use equipment.
    The major equipment shortfalls and modernization needs are listed 
in the Air National Guard Major Weapons Systems Modernization 
Requirements Book and the Domestic Operations Equipment Requirements 
Book for 2011. These assets range from avionics upgrades, Beyond Line 
of Sight radios, Secure Line of Sight radios, Targeting Pod upgrades, 
Handheld Laser Target Markers, to specialized commercial off the shelf 
equipment to support the Chemical, Biological, Radiological, Nuclear 
enterprise, such as interoperable communication, Prime power and route 
clearance heavy and light equipment. Our field driven modernization 
process has identified approximately $11 billion in requirements for 
weapons system modernization and $592 million needed for domestic 
operations equipment. These requirements are based on a bottom-up 
approach to generating, validating and vetting requirements for 
critical capabilities. The Air National Guard engages annually with 
experienced warfighters and emergency responders to document their top 
five critical capability gaps for each major weapons system.
    Mr. Bartlett. What are your thoughts on the National Guard and 
Reserve Equipment Account that Congress has approved in previous fiscal 
years? Has this account been effective? Are you able to obligate funds 
from this account in a timely manner?
    General Wyatt and General Carpenter. National Guard and Reserve 
Equipment Account (NGREA) funding for has been very effective at 
complementing the funding the ARNG receives for equipment from the 
Active Army. As GEN McKinley recently testified ``I would be remiss if 
I did not point how important NGREA has been and will be . . . in 
modernizing and equipping the Guard.'' The ARNG NGREA Business Rules 
prioritize critical items of equipment where a shortfall exists in 
modernization or on-hand quantities. The ARNG focuses on procuring 
critical dual use equipment; equipment that is used for overseas 
contingency operations and homeland support missions.
    Army National Guard NGREA obligation rates have significantly 
improved in the past twelve months through the implementation of better 
business practices and communication with Department of the Army and 
Program Manager Offices. NGREA obligation rates for the FY09 and FY10 
exceed Congressional and Office of the Secretary of Defense obligation 
standards. ARNG NGREA obligation rates as of June 2011 are as follows: 
FY09--98%; FY10--88%.
    The National Guard and Reserve Equipment Account (NGREA) is the 
life blood of ANG modernization efforts. The active component's 
emphasis is on long term recapitalization as Department of Defense 
budgets flatten, which increases the importance of NGREA for 
modernizing legacy ANG aircraft. In addition, the active component has 
not yet recognized the unique requirements driven by the ANG's domestic 
mission--NGREA is the primary means to fulfill these current domestic 
capability shortfalls.
    The ANG changed the NGREA planning and execution process to meet 
the Office of the Secretary of Defense (OSD) goal of obligating 80% of 
procurement funds in the first fiscal year of the appropriation. The 
Air Force is also providing assistance by issuing policy letters that 
will drive process changes to speed obligations. ANG NGREA obligation 
rates are now within OSD standards, and as of June 2011 are as follows: 
FY09--93.5%; FY10--83.5%.
    Mr. Bartlett. MG Carpenter, many of the Army National Guard Shadow 
systems are not funded for conversion to TCDL (Tactical Common Data 
Link) enabling far greater bandwidth and security than the current 
analog data links. What is the Army's plan to fully fund the conversion 
of these critical systems?
    General Carpenter. The conversion of the Army National Guard's 
Shadow systems to Tactical Common Data Link (TCDL) is fully funded and 
on track to begin fielding by FY13. All Shadow systems in the Army 
National Guard will undergo this conversion by the end of FY17.
    Mr. Bartlett. LTG Stultz and MG Carpenter, as you are aware, the 
Army has indicated the acquisition objective for new production Utility 
and Up-Armor Humvees is complete and the Army now plans to transition 
from new production Humvees to focusing on ``recapping'' those in 
current inventory and those returning from Iraq.
    What is the Army National Guard's and Army Reserve's position 
toward the Army's new acquisition strategy for Humvees?
    General Carpenter. The Army National Guard (ARNG) supports the 
Army's new HMMWV acquisition strategy to recapitalize the current 
inventory and vehicles returning from theater. Thirty-four percent of 
the ARNG HMMWV fleet is up-armored, which is comparable to the 
modernization levels of other Army Commands. Although the FY12 budget 
provides HMMWV recapitalization funds for recapitalization of the 3,300 
legacy HMMWVs remaining in the ARNG inventory, it remains a significant 
concern, as these HMMWVs passed their 20 Year Economic Useful Life. The 
11,300+ modernized HMMWVs in the ARNG are reliable and critical to pre-
deployment training, as well as Homeland Defense/Homeland Security 
missions.
    Mr. Bartlett. Night vision systems such as goggles, aiming lights, 
and thermal detection devices are key enablers for Army forces. With 
the nation engaged in multiple combat, counter-terror, and no fly zone 
operations, we are relying increasingly on our Army National Guard and 
Reserve Forces to support these types of military operations, as well 
as humanitarian/disaster relief and recovery operations. Ensuring that 
National Guard and Reserve forces have the necessary training and 
equipment to participate in joint operations is a high priority.
    Does your budget include funding to continue modernization of 
National Guard and Reserve night vision capabilities, to include state 
of the art night vision goggles, aiming lights, and thermal detection 
devices?
    Could you provide an assessment of your strategy and resourcing to 
equip our Army National Guard and Reserve forces with these advanced 
night vision capabilities?
    What are the National Guard's shortfalls in night vision 
capabilities and requirements to maintain its readiness to fulfill 
homeland defense and state disaster recovery and relief missions?
    When do you anticipate fulfilling these requirements?
    General Carpenter. The ARNG is fielded to 100% of its aiming light 
requirement. The ARNG has over 90% of the requirement for night vision 
equipment and expects to be 100% fielded by FY12. All night vision 
equipment supplied to the ARNG is the most modern variant. The ARNG 
anticipates to receive its equitable share of modern night vision 
equipment beyond FY12, displacing legacy equipment from its inventory. 
The ARNG has 65% of its current required thermal weapons sights with 
the expectation to be fully fielded by the end of FY15.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. LTG Stultz and MG Carpenter, regarding the significant 
aging of the Guard (or) Reserve HMMWV fleet and the effect on readiness 
of using very aging equipment in the training cycle, could you tell me 
what percentage of your HMMWV fleet is 15 years or older? 20 years or 
older?
    General Stultz. The Army Reserve HMMWV equipment on-hand is 94%. Of 
these, 42% of the HMMWV fleet is 15 years or older, of which, 8% is 
greater than 20 years old. The age of our HMMWV fleet has minimal 
readiness impact due to reduced HMMWV operational tempo, reliance on 
theater provided equipment (TPE) and the increased use of the MRAP. 
Deploying forces are equipped with the modernized equipment through re-
distribution or TPE.
    Mr. Turner. LTG Stultz and MG Carpenter, it appears you have a 
significant number of the oldest HMMWVs, the M998s--even if we re-cap 
those vehicles, don't we still have an older technology vehicle to 
train with and a vehicle that can't support the electronics and 
enhanced capability needed for the modern battlefield?
    General Stultz. All future RECAP distributions will be Armored 
Capable that can support the electronics and enhanced capability 
required on the modern battlefield. Deploying forces are equipped with 
the modernized equipment through redistribution or theater provided 
equipment.
    The Army Reserve HMMWV EOH is 94%. 42% of the HMMWV fleet is 15 
years or older. 41% of the HMMWV fleet is the recapitalized M998 or 
M1097R which is a modernized non-armored capable vehicle. 16% of the 
fleet is the armored (UAH) variant.
    The Army Reserve is working with HQDA to re-allocate or rebalance 
the HMMWV fleet to increase the number of UAH variants and to replace 
the legacy fleet. All distributions of the HMMWV to the Army Reserve 
will be Armored Capable that can support the electronics and enhanced 
capability required on the modern battlefield. Upon completion of the 
rebalance the Army Reserve will have the right variant mix. Due to the 
reduced HMMWV operational tempo, reliance on theater provided equipment 
(TPE), and the increased use of the MRAP, the Army Reserve is able to 
meet its training and mission requirements with the HMMWV.
    Mr. Turner. LTG Stultz and MG Carpenter, regarding the significant 
aging of the Guard (or) Reserve HMMWV fleet and the effect on readiness 
of using very aging equipment in the training cycle, could you tell me 
what percentage of your HMMWV fleet is 15 years or older? 20 years or 
older?
    General Carpenter. The Army National Guard HMMWV fleet is at 100 
percent of authorizations and has 3.5 percent of assigned vehicles at 
15 to 20 years of age. A large portion (21.8 percent) of the ARNG HMMWV 
fleet is over 20 years of age and was neither rebuilt nor recapitalized 
by the maintenance system, however, future reductions in HMMWV 
authorizations will reduce this population of older vehicles to 
approximately 8.6 percent of the fleet.
    Mr. Turner. LTG Stultz and MG Carpenter, it appears you have a 
significant number of the oldest HMMWVs, the M998s--even if we re-cap 
those vehicles, don't we still have an older technology vehicle to 
train with and a vehicle that can't support the electronics and 
enhanced capability needed for the modern battlefield?
    General Carpenter. The ARNG has successfully fielded all the modern 
electronics systems into legacy HMMWVs. Both recapitalized and non-
recapitalized vehicles can support modern electronics. The real issue 
is the ability of the newer systems to accept additional armor and be a 
deployable asset. Legacy HMMWVs cannot be up-armored for deployment. 
The legacy HMMWVs are lighter and are suitable for most Home Land 
missions in their current configuration.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY

    Mrs. Roby. LTG Stultz and MG Carpenter, we are all aware that the 
Reserve Component role in our National defense has largely shifted from 
that of a strategic reserve to an operational reserve. Although 
contingency operations have expedited the issuance of modernized 
equipment to Reserve Component units, quantities of this modern 
equipment has been removed from the operational control of Reserve 
Component units through combat loss or due to necessary and 
understandable Combatant Commander Requirements (stay-behind equipment 
programs). The rapid replacement of this equipment to units in the 
contiguous U.S. (CONUS) is crucial, particularly for National Guard 
units. These shortfalls will likely become problematic when National 
Guard units are called upon by their Governor to respond to natural or 
man-made disasters, an annual occurrence in many states including 
Alabama.
    Which Reserve Component units have equipment shortages due to 
combat loss or stay-behind equipment?
    General Stultz. The Army Reserve does not track combat losses. Once 
an Army Reserve unit is deployed the tracking of combat losses is the 
responsibility of the Combatant Commander. Combat losses are 
consolidated by HQDA and submitted for replacement through OCO 
resourcing. The replacement of these items to the impacted units is 
through a combination of OCO and Base Budget resourcing. The Army 
Reserve does track theater stay behind and diverted equipment. The Army 
Reserve has received resourcing and payback for all FY 09 and earlier 
theater stay behind and diverted equipment. Since FY 09, all theater 
stay behind equipment has been for the use of Army Reserve units. Army 
Reserve equipment that HQDA G3 has directed to stay behind in theater 
or diverted from Army Reserve units have been in accordance with DoDD 
1225.6 with a pay-back plan.
    Mrs. Roby. Of these, which are currently at Unit Status Report an 
overall readiness level of C-3 or lower due primarily to these 
shortfalls?
    General Stultz. As of May 2011, there are 502 units reporting S-4 
with Engineer (16.9%), Medical (19.3%), and Military Police (10.2%) 
making up the majority of these organizations. These shortages are not 
a result of combat losses and stay behind equipment requirements.
    Mrs. Roby. Does the FY 2012 budget adequately fund filling 
equipment shortfalls in the affected Reserve Component units?
    General Stultz. The PB12 adequately funds critical equipment 
shortfalls in the Army Reserve. We continue to work with HQDA to ensure 
that the Army Reserve units are equipped with modernized equipment to 
meet training and mission requirements. The Army Reserve is currently 
67% modernized.
    Mrs. Roby. When are affected units scheduled to have their 
equipment shortfalls replaced?
    General Stultz. The Army Reserve will receive payback for the HQDA 
G3 directed theater stay behind or diverted equipment by FY 17.
    Mrs. Roby. Is it your understanding that the Department of 
Defense's intent is to fill all Reserve Component units to the level 
they were prior to fielding for deployment, or to bring them back to 
the readiness level they were at their peak during deployment? What is 
the path forward to bring these units to Unit Status Reporting levels* 
S-3, S-2, and S-1, respectively?
    General Stultz. Not all units will be returned to its original 
readiness status initially, in accordance with the ARFORGEN phases. 
When a unit demobilizes, it returns to the RESET phase and will 
progressively return to S-1 readiness status as it reaches the 
Available phase with the most modernized equipment needed to meet its 
operational requirements.
    Mrs. Roby. LTG Stultz and MG Carpenter, we are all aware that the 
Reserve Component role in our National defense has largely shifted from 
that of a strategic reserve to an operational reserve. Although 
contingency operations have expedited the issuance of modernized 
equipment to Reserve Component units, quantities of this modern 
equipment has been removed from the operational control of Reserve 
Component units through combat loss or due to necessary and 
understandable Combatant Commander Requirements (stay-behind equipment 
programs). The rapid replacement of this equipment to units in the 
contiguous U.S. (CONUS) is crucial, particularly for National Guard 
units. These shortfalls will likely become problematic when National 
Guard units are called upon by their Governor to respond to natural or 
man-made disasters, an annual occurrence in many states including 
Alabama. Which Reserve Component units have equipment shortages due to 
combat loss or stay-behind equipment? Of these, which are currently at 
Unit Status Report an overall readiness level of C-3 or lower due 
primarily to these shortfalls? Does the FY 2012 budget adequately fund 
filling equipment shortfalls in the affected Reserve Component units? 
When are affected units scheduled to have their equipment shortfalls 
replaced? Is it your understanding that the Department of Defense's 
intent is to fill all Reserve Component units to the level they were 
prior to fielding for deployment, or to bring them back to the 
readiness level they were at their peak during deployment? What is the 
path forward to bring these units to Unit Status Reporting levels* S-3, 
S-2, and S-1, respectively?
    General Carpenter. ARNG units provided 57.7K pieces of equipment 
early in the war to support theater equipment needs. This loss of 
equipment had a serious impact on readiness and domestic response 
capability beginning in the 2005-2006 timeframe. As the equipment taken 
was paid back, the equipment was generally provided to the highest 
priority unit or to a State with shortages for domestic response 
(hurricane States) at that time. Often enough time had passed that the 
original unit's shortfall had been mitigated by fieldings, 
redistribution or authorization changes. Army efforts to replace the 
equipment and modernize ARNG units were well supported by Congress and 
have had a dramatic effect in reconstituting ARNG units. Whereas much 
of the equipment taken in this timeframe was legacy, unparalleled 
amounts of modern equipment have replaced it. The impact of loss of 
equipment in the later years was less severe as Army units were able to 
draw equipment from theater and the Army was able to modernize those 
sets as necessary. As an example, the ARNG now has 100 percent of 
HMMWVs and heavy trucks and is quickly moving towards 100 percent in 
medium trucks. Concerning other types of equipment, the ARNG has been 
fielded over 100K of both the latest rifle and the newest night vision 
goggle. The readiness challenges of today are more related to the 
Transformation of the Army and introduction of new equipment 
requirements than the previous loss of equipment to build theater 
stocks.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
